                                             SENSITIVE BUT UNCLASSIFIED



OFFICE OF INSPECTOR GENERAL

                                                       United States Department of State
                                                       and the Broadcasting Board of Governors
                                                       Office of Inspector General




                               OFFICE OF INSPECTIONS

                               Inspection of the Bureau of European and
                               Eurasian Affairs


                               Report Number ISP-I-11-22, March 2011
Inspector
General
Office of




                                                                      IMPORTANT NOTICE
                               This report is intended solely for the official use of the Department of State or the Broadcasting Board
                               of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
                               General. No secondary distribution may be made, in whole or in part, outside the Department of State
                               or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be determined by the
                               Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
                               criminal, civil, or administrative penalties.



                                             SENSITIVE BUT UNCLASSIFIED

      SENSITIVE BUT UNCLASSIFIED





     PURPOSE, SCOPE, AND METHODOLOGY 

            OF THE INSPECTION

This inspection was conducted in accordance with the Quality Standards for
Inspections, as issued by the President’s Council on Integrity and Efficiency,
and the Inspector’s Handbook, as issued by the Office of Inspector General
for the U.S. Department of State (Department) and the Broadcasting Board of
Governors.

Purpose and Scope
The Office of Inspections provides the Secretary of State, the Chairman
of the Broadcasting Board of Governors, and Congress with systematic
and independent evaluations of the operations of the Department and the
Broadcasting Board of Governors. Inspections cover three broad areas,
consistent with Section 209 of the Foreign Service Act of 1980:

• 	 Policy Implementation: whether policy goals and objectives are being
    effectively achieved; whether U.S. interests are being accurately
    and effectively represented; and whether all elements of an office or
    mission are being adequately coordinated.

• 	 Resource Management: whether resources are being used and
    managed with maximum efficiency, effectiveness, and economy and
    whether financial transactions and accounts are properly conducted,
    maintained, and reported.

• 	 Management Controls: whether the administration of activities and
    operations meets the requirements of applicable laws and regulations;
    whether internal management controls have been instituted to ensure
    quality of performance and reduce the likelihood of mismanagement;
    whether instance of fraud, waste, or abuse exist; and whether adequate
    steps for detection, correction, and prevention have been taken.


Methodology

In conducting this inspection, the inspectors: reviewed pertinent records;
as appropriate, circulated, reviewed, and compiled the results of survey
instruments; conducted on-site interviews; and reviewed the substance of
the report and its findings and recommendations with offices, individuals,
organizations, and activities affected by this review.




      SENSITIVE BUT UNCLASSIFIED

               SENSITIVE BUT UNCLASSIFIED





                                           United States Department of State
                                           and the Broadcasting Board of Governors
                                           Office of Inspector General




                                     PREFACE


This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service
Act of 1980, as amended. It is one of a series of audit, inspection, investigative, and
special reports prepared by OIG periodically as part of its responsibility to promote
effective management, accountability and positive change in the Department of State
and the Broadcasting Board of Governors.

This report is the result of an assessment of the strengths and weaknesses of the
office, post, or function under review. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of
applicable documents.

The recommendations therein have been developed on the basis of the best knowl­
edge available to OIG and, as appropriate, have been discussed in draft with those
responsible for implementation. It is my hope that these recommendations will result
in more effective, efficient and/or economical operations.

I express my appreciation to all of those who contributed to the preparation of this
report.




                                       Harold W. Geisel
                                       Deputy Inspector General




               SENSITIVE BUT UNCLASSIFIED

                   SENSITIVE BUT UNCLASSIFIED




                                            Table of Contents


KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

POLICY AND PROGRAM IMPLEMENTATION . . . . . . . . . . . . . . . . . . . . . . . . . . 7

  Foreign Assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

  Regional/Functional Offices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

  Functional Offices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

  Regional Offices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

  Office of Ukraine, Moldova, and Belarus Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

  Embedded Officers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

  Public Diplomacy Strategic Plans . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

  Division of Press and Outreach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

RESOURCE MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

  Management Initiatives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

  Joint Executive Office: Overview. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

  Human Resources Division. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

  Overseas Division . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

  Post Management Division . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

  Equal Employment Opportunity. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

  General Services Division . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

  Customer Support Center Division . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

  Financial Management Division . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

  Information Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

  Security Program. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

 Travel Vouchers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

 Purchase Card Program. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50

 Performance Management. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

 Standard Operating Procedures. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57

PRINCIPAL OFFICIALS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

EUR BUREAU ORGANIZATION CHART. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65



               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011                      v


                   SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED





vi   OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


         SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED





KEY JUDGMENTS


 • 	 The Bureau of European and Eurasian Affairs (EUR) plays a dynamic and
     highly effective role in assuring close U.S. collaboration and cooperation with
     European allies and regional organizations, such as the North Atlantic Treaty
     Organization (NATO), the European Union (EU), and the Organization for
     Security and Cooperation in Europe (OSCE), across a wide range of political,
     security, economic, global, and cultural affairs. It also deals intensively with
     issues related to the Russian Federation and other European states beyond the
     limits of the EU. Although European issues may not dominate U.S. attention
     to the extent they did during the Cold War, EUR’s responsibilities continue
     to be of core importance to U.S. interests.

 • 	 The bureau’s organizational structure is an unusual mix of country and
     functional offices that has evolved over many years. To improve operational
     efficiency, a top-to-bottom review of EUR’s structure should be carried out,
     with a view to reducing overlap among desks and issues and streamlining
     complex coordination processes.

 • 	 EUR’s clearance process is cumbersome and the major cause of overtime in
     the functional and some regional offices. The bureau is aware of the problem
     and has worked to address internal clearance issues, but major contributing
     factors are external and beyond EUR’s sole control.

 • 	 The Office of the Coordinator of U.S. Assistance to Europe and Eurasia
     (ACE), which operates under congressional legislation, serves the bureau very
     well in ensuring that over $850 million in annual foreign assistance to the
     region is linked to foreign policy objectives, and that assistance programs are
     effectively coordinated, U.S. Government-wide.

 • 	 The Office of Press and Public Diplomacy (PPD) is attempting to carry out
     two independent and potentially conflicting public diplomacy (PD) strate­
     gies. One is the PD “Framework,” designed by the Under Secretary for Public
     Diplomacy and Public Affairs (R). The second is EUR’s strategic plan. The
     two plans need to be reconciled.

 • 	 The Division of Press and Outreach should be placed under the direct super­
     vision of the deputy assistant secretary (DAS) responsible for PD, who is more
     regularly and directly involved in the office’s work than is the director of
     PPD, the current supervisor.



     OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   1


         SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



       •   Overall, the Joint Executive Office (JEX) provides good administrative
           support to its customers in the two bureaus it serves, EUR and the Bureau
           of International Organization Affairs (IO). However, following significant
           growth spurts, JEX needs to address several operational areas to improve
           services.

       •   Two years after the consolidation of desktop services with the Bureau of
           Information Resource Management (IRM), growing pains related to infor-
           mation technology (IT) remain widespread in EUR. IRM has not fully
           determined or conveyed the division of labor between consolidated bureaus
           and IRM with regard to IT services. In EUR, the result is frequent frustra-
           tion and low customer satisfaction among staff at all levels.

    The inspection took place in Washington, DC, between October 4 and November 29,
    2010. (b) (6)




2             OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                  SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED





CONTEXT


EUR is the largest geographic bureau in the Department of State (Department), with
322 direct-hire and 40 contractor employees domestically, and 1,863 U.S. direct-hire
and approximately 10,000 locally employed staff positions overseas, in 50 missions
and 29 constituent posts. Total FY 2010 budget resources (domestic and overseas) for
EUR are just under $604 million (excluding salaries for direct-hire Americans and
foreign assistance). In addition to a geographic focus that stretches from Greenland
to Vladivostok, EUR also operates as a de facto functional bureau in several specific
areas of responsibility. Led by an Assistant Secretary, a principal deputy assistant
secretary (PDAS) and six DASes, EUR’s 17 offices oversee and support the work of
80 posts, accredited to 47 countries and four multilateral organizations. The bureau
also supports the work of four special envoys. (See organization chart at the end of
this report.)

Today, EUR functions on the basis of a double legacy. First, it works to preserve and
adapt the close relationships that the United States forged with Europe during the
Cold War — with our historic allies, as well as with NATO, the EU, and the OSCE,
organizations that played key roles in rebuilding and redefining a continent ravaged
by World War II. Second, EUR is responsible for managing relations with the states
of Eastern Europe and the Balkans, many of which formerly fell under Soviet hege­
mony. This complex and multifaceted dual portfolio comprises political, economic,
strategic, and humanitarian elements that are central to U.S. national interests.

The Office of Inspector General (OIG) last inspected EUR in FY 2000. In the
intervening years, the international and domestic environments in which the bureau
operates have changed profoundly. Iraq, Afghanistan, and new centers of global
influence have emerged to challenge the international structures formed more than
a half century ago. Nevertheless, close collaboration and cooperation with Europe
remain crucial to U.S. interests. EUR’s fundamental mission today is to ensure that
these key relationships are not put at risk by taking them for granted.




            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   3


                SENSITIVE BUT UNCLASSIFIED
        SENSITIVE BUT UNCLASSIFIED





4   OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


        SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




EXECUTIVE DIRECTION

By the fall of 2010, when this inspection occurred, most of the leadership team had
been in place for a year or more and had successfully put its stamp on bureau policy
and operations. The Assistant Secretary, a highly respected expert in a wide range
of European political, economic, and security issues, possesses both distinguished
academic credentials and prior government experience on the National Security
Council staff. The PDAS is a widely respected career Foreign Service officer who
has served at a variety of European posts as ambassador, deputy chief of mission,
and political officer, and in Washington with EUR, the Office of the Secretary of
Defense, and the National Security Council. Her extensive, substantive background,
bureaucratic experience, leadership skills, and operational know-how effectively
complement the Assistant Secretary’s acknowledged policy and analytical strengths.

Six highly qualified DASes support the work of the Assistant Secretary and PDAS.
The PDAS personally supervises three functional offices. Five of the remaining
DASes oversee an eclectic mix of regional and functional offices that cover countries
from Iceland to Azerbaijan, as well as relations with the EU and policy and regional
affairs. The sixth DAS focuses entirely on PD and press activities. Eight office
management specialists, one special assistant, five staff assistants, and one travel
coordinator round out the current front office staffing.

The Assistant Secretary (or the PDAS when he is traveling) chairs a daily staff meet­
ing at the start of every workday. DASes and office directors attend the meetings on
Mondays and Wednesdays, while the Friday meetings are also open to other “inter­
ested EUR personnel.” On Tuesdays and Thursdays only DASes participate, along
with press/public affairs staff. All these meetings are tightly focused and efficiently
run, but the atmosphere is informal and is leavened by a palpable sense of collegiality
and mutual respect. While information is shared efficiently down to the DAS level,
feedback further down the chain of command (for instance, regarding EUR meetings
involving the White House and Seventh Floor Principals) has been spotty, and occa­
sionally desk officers wonder what use was made of the briefing papers they prepared
for high-level discussions. The OIG team discussed the issue of insufficient feedback
with the bureau, which has begun taking corrective action.

During the inspection period, the bureau ably juggled the demands of an inspection
while managing four high-level international conclaves: the October 14 meeting of
NATO Foreign and Defense Ministers in Brussels, attended by Secretaries Clinton


             OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   5


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



    and Gates; the November 19-20 NATO Summit in Lisbon; the November 20
    U.S.-EU Summit, also in Lisbon; and the December 1-2 OSCE Summit in Astana,
    Kazakhstan. Secretary Clinton accompanied the President to the events in Lisbon
    and led the U.S. delegation in Astana. EUR played a critical role in the preparations
    for all four events, and the Assistant Secretary traveled with the Secretary to all of
    them.

    As noted earlier, a de facto division of labor exists between the Assistant Secretary
    and the PDAS. This is properly reflected in the latter’s work requirements statement,
    which accurately and succinctly defines her role as the intellectual and operational
    bridge between the Assistant Secretary and the rest of the bureau. Her work require­
    ments statement gives the PDAS the lead in welcome efforts to enhance diversity
    in the bureau’s professional cadre. It also assigns her responsibility for mentoring
    new ambassadors, both career and noncareer. The range and variety of her tasks are
    daunting, but she carries them out with exceptional focus, energy, and commitment.

    At the present time, 25 of the 45 ambassadors at EUR’s 50 overseas posts are political
    appointees. (Five EUR posts are currently without ambassadors.) While most ambas­
    sadors perform admirably, the front office, office directors, and desk officers spend
    an inordinate amount of time handling issues related to a small number of “difficult”
    noncareer ambassadors. This has been a drain on human and resource capital, both
    at the posts concerned and in the bureau.

    The Department’s increased emphasis on press and PD casts a spotlight on how PD
    is managed in EUR. The roles and responsibilities of PD officers who are “embed­
    ded” in EUR policy offices require better definition and should be reflected consis­
    tently in these officers’ work requirements statements. The risk of duplication and
    inconsistency between the bureau’s internal strategic planning for PD and the Public
    Diplomacy Framework issued by R raises questions about the lines of authority for
    PD issues, both within EUR and between EUR and R. To clarify PD lines of author­
    ity within EUR, bureau leadership should separate PD from the Office of Press and
    Public Diplomacy, with both offices reporting directly to the DAS responsible for
    public diplomacy. The OIG team has submitted recommendations addressing both
    these issues.

    Employee morale in EUR is generally high, which is noteworthy given the long hours
    and sustained high pressure that are the norm throughout the bureau. However,
    many new arrivals receive little or no orientation or training, relying instead on
    advice and guidance from very busy coworkers. Inspectors found a widespread
    sentiment among newcomers — especially among entry-level officers (ELOs) and
    others assigned to Washington for the first time — that whatever orientation they
    did receive was inadequate to address the substantive and operational challenges of,
    for example, a desk officer in a fast-moving interagency environment. Led by the
    PDAS, EUR is taking steps to address this issue and is instituting new orientation
    and mentoring programs for its ELOs.


6               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                    SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



POLICY AND PROGRAM
IMPLEMENTATION


FOREIGN ASSISTANCE
Office of the Coordinator of U.S. Assistance for Europe and Eurasia
ACE is responsible for planning, budgeting, coordinating, and monitoring all U.S.
Government assistance, totaling over $1 billion in FY 2010, to 18 countries in
Europe, Eurasia, and Central Asia. Strong office leadership, an experienced, enthusi­
astic, and able staff, and direct control over 63 percent of all U.S. assistance funds to
the 18 countries give ACE the clout to effectively coordinate assistance to its regions.
The office’s main objective is to guide and help establish market-oriented, democratic
societies in the countries and regions it covers. This objective is consistent with and
supportive of the objectives of EUR and the Bureau of South and Central Asian
Affairs, as written in their Bureau Strategic and Resource Plans (BSRP).

The coordinator’s authority to perform these tasks is specified in the Support for
East European Democracies (SEED) Act of 1989 and the FREEDOM Support Act
of 1992, which created the position and placed it within the Department. These
two acts give the coordinator a broad mandate to oversee and coordinate all aspects
of U.S. assistance to Europe, Eurasia, and five countries in Central Asia. The office
is particularly effective in policy and program coordination, receiving praise from a
number of U.S. Government agencies for its balanced approach and fairness.

ACE is headed by the coordinator, a senior Civil Service employee, who is designated
by the President. As such, the coordinator has a certain degree of autonomy within
EUR. The coordinator meets frequently with the Assistant Secretary and PDAS and
participates in regularly scheduled EUR senior level team meetings to ensure a close
link between foreign policy and assistance programs.

The coordinator directs a staff of 33 Foreign Service officers, Civil Service employ­
ees, and contractors. This split among the employment categories works well, as all
employees bring expertise and different points of view: the Civil Service employees
and contractors provide experience, continuity, and institutional memory; the




            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   7


                SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




    Foreign Service officers bring country experience and foreign policy insights. The
    office was reorganized in early 2010 to more closely integrate security and law
    enforcement and governance and democracy specialists from two stand-alone sections
    into the two regional sections. One regional section covers programs in Europe
    (SEED Act countries), and the other covers programs in Eurasia and Central Asia
    (FREEDOM Support Act countries). The two regional offices work closely with
    U.S. embassies, bureau country desks, and implementing agencies to ensure a close
    link between U.S. foreign policy objectives and the development process. In addi­
    tion a budget section prepares country and program budgets, allocates Assistance for
    Europe, Eurasia and Central Asia (AEECA) funds, tracks expenditures, and notifies
    Congress about expenditures of programmed money; and a program section tracks,
    monitors, and reports on strategy and program performance.

    ACE, through its congressionally mandated authorities, has direct control over funds
    that Congress appropriates to the AEECA account. Through a participatory process,
    ACE allocates the AEECA funds to a number of agencies, primarily the U.S. Agency
    for International Development (USAID), for specific programs. ACE does not imple­
    ment any programs directly, other than a humanitarian grant program and some
    grants to democracy and governance program implementers, totaling $34.3 million
    in FY 2010. The office is also the foreign assistance planner for EUR and for the five
    Central Asian countries in the Bureau of South and Central Asian Affairs, providing
    coordination for non-AEECA funds, such as foreign military financing; international
    military education and training; nonproliferation, antiterrorism, demining, and
    related programs; economic support funds; and other Department-USAID funding
    in the regions. In FY 2010, Congress appropriated $741.6 million to the AEECA
    account and $297.9 million to the above listed, non-AEECA accounts. Of the
    AEECA funds, ACE transferred 68 percent to USAID for its programs, 12 percent to
    the Bureau of International Narcotics and Law Enforcement Affairs, five percent to
    EUR’s Office of Regional Security and Political Military Affairs (RPM) for the U.S.
    contribution to the OSCE, and the remainder in smaller amounts to 18 other agen­
    cies or bureaus in the Department.

    An unusual aspect of this office is that its authority also covers five countries in
    Central Asia that are part of another bureau, the Bureau of South and Central Asian
    Affairs. The FREEDOM Support Act specifically includes Turkmenistan, Tajikistan,
    Kazakhstan, Kyrgyzstan, and Uzbekistan, and money is appropriated to the AEECA
    account to fund programs there. From its office in EUR, ACE coordinates effectively
    with the Bureau of South and Central Asian Affairs’ front office, as well as with the
    country desks on the five Central Asian countries.

    Within the limitations of required congressional and other notifications, ACE can
    move quickly to reprogram AEECA funds to address special circumstances or events.
    Following crises such as the Georgia-Russia conflict in 2008 or the April 2010 revo­
    lution and subsequent violence in Kyrgyzstan, ACE convened interagency meetings
    to plan U.S. assistance to address the immediate crisis. Because of its mandate and

8               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




its staff’s expertise, ACE can reprogram resources if necessary, organize, and quickly
implement relief and reconstruction efforts.

The inspection team reviewed several grants and a contract managed directly by
ACE. These materials appeared to be in order, with copies of forms, invoices, and
reports. All the grant officer representatives and contract officer representatives had
the required training to perform their duties, but several were not properly designated
by the Office of Acquisitions Management. During the inspection, ACE requested
these designations.

In its coordination role, ACE draws together all interested parties, from country desk
officers and embassy officers to implementing agencies or organizations, including
the Office of the Director of U.S. Foreign Assistance, to ensure a coordinated coun­
try plan and program. In particular, ACE consults closely with the ambassador and
his or her development team to confirm that the program meets local needs and is
achievable. ACE country assistance coordinators, as well as specific program special­
ists, make annual trips to the countries they cover, to consult with the embassy and
implementers and to visit program sites.

A key objective of the SEED Act and FREEDOM Support Act is to assist countries
to develop stable, market-based democracies that are highly unlikely to return to
authoritarianism. A framework of benchmarks was established in 2004 that would
indicate a country is ready to “graduate” from U.S. assistance. Eleven recipients of
SEED Act assistance have graduated,1 and all of them have joined NATO. Further,
all recipients except Croatia have joined the EU. At the time of the inspection, ACE
was rewriting its phase-out framework to make it more systematic and to allow it
some flexibility, so that countries can adjust the effective date of graduation based on
events. It will be important to complete and implement the phase-out framework, as
there are several Balkan countries approaching the economic and democratic develop­
ment graduation threshold.

As countries are phased out of receiving assistance, ACE reviews its staffing needs.
Current staff is effectively used, and staffing levels are sufficient to meet the work­
load and react to surge demands, such as the increase in demand following the
Georgia-Russia conflicts over South Ossetia, when a supplemental appropriation
provided an additional $1 billion for Georgia, which needed to be programmed.

No other bureau in the Department has an office with the same functions and author­
ity as ACE. Its unique status helps EUR establish priorities through the budget process
and link foreign policy objectives to assistance, as well as coordinat programs, conduct
annual budget reviews, and evaluate performance at the country and program level.


1	
     Bulgaria, Croatia, the Czech Republic, Estonia, Hungary, Latvia, Lithuania, Poland, Romania, Slovakia
     and Slovenia.



                 OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   9


                     SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




     REGIONAL/FUNCTIONAL OFFICES


     EUR is deliberately structured to address multiple multilateral and bilateral issues.
     The bureau consists of a cluster of functional offices, along with traditional, bilateral
     regional offices. In addition, EUR supports missions to three multilateral organiza­
     tions: NATO, the EU, and OSCE. These functional offices, coordinate takes place
     for multinational operations in countries as distant as Afghanistan, as well as for
     maritime counter-piracy operations.

     The functional office cluster includes RPM, which has responsibility for NATO
     affairs and OSCE issues. RPM is the Department’s anchor for European security
     issues, NATO operations, and U.S.-Russian security relations. Two other offices —
     the Office of European Policy and Global Issues and the Office of European Policy
     and Regional Affairs — joined EUR in May 2001, following the dissolution of the
     Office of the Special Advisor to the Secretary for the New Independent States. These
     offices brought portfolios that overlap to some extent with portfolios in other EUR
     offices. Although useful on occasion for backup and cross checks, this situation can
     result in unnecessary layering.

     RPM has 13 NATO and 4 OSCE officers, who together are responsible for 86 issue
     areas. The Office of European Policy and Regional Affairs has 9 officers covering 59
     issues, some of which overlap with issues in the RPM portfolios. In general, portfolios
     tend to be excessively specific and limited, resulting in long lists of narrowly defined
     issues.


         RECOMMENDATION 1: The Bureau of European and Eurasian Affairs
         should conduct a top-to-bottom review of functional portfolios, reducing their
         overall number and reallocating them accordingly among the relevant offices.
         (Action: EUR)




     FUNCTIONAL OFFICES
     Ofﬁce of European Union and Regional Affairs

     The talented and highly motivated staff of the Office of European Union and
     Regional Affairs (ERA) consistently produces insightful analysis on some of the
     most important issues the bureau faces. However, the office has suffered from serious
     morale problems, which a new leadership team has begun to address. The office is


10               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




led by an office director and two deputies, who are responsible respectively for an
economic policy unit and a political and security affairs unit. The rest of the office
consists of nine Foreign Service positions, three Civil Service positions, one contract
office management specialist (OMS), and from two to four interns at any given time.

The office is responsible for addressing U.S. relations with the EU and its institu­
tions, including a newly empowered European Parliament. Recent issues included
the European Parliament’s decision to terminate an interim agreement authorizing
U.S.-EU cooperation in the Terrorist Finance Tracking Program, which is designed
to identify, track, and pursue terrorists and their networks. The decision was a
major setback to U.S. and international counterterrorism efforts. ERA coordinated
and managed 6 months of intensive interagency efforts, including at one stage the
personal intervention of the President, before the United States successfully negoti­
ated a new agreement with the EU. Later, the European Parliament raised objections
(on privacy grounds) to provisions of another proposed agreement with regard to
sharing airline passenger data. ERA now is coordinating the Department’s efforts to
resolve U.S.-EU differences over this issue. Other recent issues included the spring
2010 economic crisis in Greece and other euro-zone countries, on which ERA
produced a series of perceptive analyses, and the successful effort to encourage the
EU to adopt additional strong sanctions measures against Iran.

These were notable accomplishments, made by an office that had suffered from seri­
ous morale problems under its previous leadership, which failed to provide ERA with
a clear sense of where the office was going or how its efforts related to larger bureau
priorities. Although desk in officers focused on the latest crisis, and achieved a good
deal the absence of direction, there was little or no sense of overall strategy. There
was a breakdown in effective communication between ERA and the front office, and
the perception, or misperception, grew that the Assistant Secretary had little time or
patience for the tediously slow workings of the EU and little appreciation for ERA’s
work on these matters.

An entirely new ERA leadership team is now in place, including a new director, two
new deputies, and a new DAS. The new team is well aware of the office’s previous
morale problems and has moved quickly to address them. Communications among
the director, her deputies, and subordinate staff already have improved markedly.
The director is providing feedback from the senior staff meetings she attends and
is serving as an effective channel for communicating her subordinates’ concerns to
the front office. The new leadership also is working with the front office to provide
the level of strategic guidance that was at times lacking in the past. Office morale
will continue to demand the attention of ERA managers, including the new DAS.




            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   11


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




     Communications, direction, feedback, and recognition are only some of the elements
     for building morale. Although these elements are fundamental, the OIG team
     counseled senior managers to consider additional creative solutions — which could
     be as simple as an occasional office celebration — to improve the atmosphere and
     help boost morale.


     Office of the Special Envoy for Holocaust Issues
     The Office of the Special Envoy for Holocaust Issues is a functional office respon­
     sible for developing and implementing U.S. policy with respect to the return of
     Holocaust-era assets to their rightful owners, seeking compensation for wrongs
     committed during the Holocaust, and Holocaust education and remembrance. It is
     headed by the Special Envoy for Holocaust Issues, and staffed by a deputy, two when
     actually employed (WAE) staff members, a temporary office assistant (contractor),
     and an OMS (contractor). The office supports the activities of the separate Special
     Advisor to the Secretary on Holocaust Era Issues, who is an unpaid “special govern­
     ment employee,” limited to 130 days’ employment a year.

     This office was established in 1998 in part to follow up on agreements made with
     European countries on Holocaust era-related issues. One of the two WAEs has been
     with the office since its inception; the other has been there nearly as long. The office’s
     mandate has been extended several times.

     The office performs admirably in a range of highly technical discussions and negotia­
     tions. These include dealing with executive agreements and out-of-court settlements
     reached with European countries on insurance claims and property restitution, and
     a number of similarly complex issues. The office was critically involved with the
     successful conclusion in June 2009 of a landmark, nonbinding agreement among 47
     nations that established a roadmap for resolving outstanding Holocaust-related issues.

     As the Office of the Special Envoy for Holocaust Issues addresses the opportunities
     presented by the 2009 agreement, it also faces a period of personnel transition. At the
     time of the inspection, the office was in the process of restructuring its personnel to
     provide more consistent, sustainable coverage of the office’s issues, by replacing its
     two part-time WAEs with a single, full-time Civil Service employee. This transition,
     which has been in process for some months, has negatively affected office morale.

     Because the Office of the Special Envoy for Holocaust Issues was always envisioned
     as a temporary entity, bureau and office leadership now are exploring whether and
     how it might eventually be phased out as a separate office and its work incorporated
     into other entities.




12               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED





   RECOMMENDATION 2: The Bureau of European and Eurasian Affairs,
   in coordination with the Office of the Legal Adviser, should establish specific
   benchmarks in the resolution of Holocaust era-related issues that, when
   reached, would lead to the phasing out of the Office of the Special Envoy
   for Holocaust Issues and absorption of its remaining elements into other
   Department offices. (Action: EUR, in coordination with L)



Office of Policy and Global Issues
The Office of Policy and Global Issues consists of the officer director, a contract
OMS, and 10 officers: a mix of three Foreign Service officers, who provide policy
area awareness and experience, and seven Civil Service employees, who provide issue
continuity.

The Office of Policy and Global Issues is responsible for some 20 cross-cutting issues,
putting it in daily contact with 10 Department functional bureaus and 5 government
agencies. These issues include counterterrorism, crime, counternarcotics, trafficking
in persons, science and technology, and engaging Muslim communities. Working
closely with the Bureau of Legislative Affairs, the office also has the bureau lead on
congressional correspondence, congressional inquiries, testimony, preparation of prin­
cipals for briefings and hearings, preparation for confirmation hearings, and day-to­
day congressional liaison, including congressional travel. The OIG team informally
recommended that EUR review and reallocate the responsibilities for coordinating
routine legislative affairs directly to the responsible offices.

The office director developed a Civil Service professional development rotational
program, which EUR began piloting in June 2010. It is a one-of-a-kind program that
gives Civil Service personnel a chance to develop professionally and gain new skills
and experience. The Bureau of Human Resources (HR) has shown interest in imple­
menting a similar program Department-wide, following the pilot’s completion.


Office of Policy and Regional Affairs
The Office of Policy and Regional Affairs is the smallest functional office in the
bureau. It coordinates policy on strategic security issues and provides guidance on
some 59 specific, bilateral issues, including nuclear defense posture and tactical
nuclear weapons. The office is staffed by three Foreign Service officers with country-
specific experience and negotiating skills, seven Civil Service employees with techni­
cal skills and portfolio continuity, and one contract employee.

            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   13


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




     The office receives guidance from the Assistant Secretary and PDAS on selected
     issues, such as tactical nuclear weapons policy, and separately from its own DAS
     on other strategic security issues. The Office of European Security and Political
     Affairs, which has responsibility for formulating policy and providing guidance to
     the missions to NATO and the OSCE, regularly meets with the Office of Policy and
     Regional Affairs to ensure consistency.

     The Office of Policy and Regional Affairs coordinates extensively with other U.S.
     Government agencies and entities, including the National Security Council, Office
     of the Secretary of Defense, Missile Defense Agency, Joint Chiefs of Staff, the intel­
     ligence community, and the Departments of Energy, Treasury, and Commerce.


     Office of European Security and Political Military Affairs
     RPM is the focal point within the Department for issues bearing on U.S. security
     policy in Europe. The office is divided into four units (NATO Operations, NATO
     Policy, NATO-Russia, OSCE), each headed by a deputy office director. Its office
     directors and their staffs are among the most knowledgeable and respected in the
     U.S. Government in their areas of expertise. Ironically, this has at times worked
     against the office; “poaching” of its officers by higher-level policy offices in the
     Department and the National Security Council occurs with some regularity. The
     professionalism and dedication of RPM officers is exceptional, as are the long hours
     they regularly put in.

     While the office has the U.S. Government lead in providing political guidance to the
     U.S. missions to NATO and OSCE, other EUR offices (such as the Office of Policy
     and Regional Affairs) also deal with NATO and OSCE issues. The OIG team infor­
     mally recommended that the bureau compare security-related portfolios in RPM and
     the Office of Policy and Regional Affairs to minimize unnecessary overlap. Given the
     breadth and sensitivity of the issues the RPM covers, it is particularly vulnerable to
     the cumbersome clearance process both within and outside the Department.




     REGIONAL OFFICES

     Office of Caucasus Affairs and Regional Conflicts
     The Office of Caucasus Affairs and Regional Conflicts (CARC) covers three states
     in the Caucasus region, all of them former Soviet republics: Armenia, Azerbaijan, and
     Georgia. The office is staffed by seven Foreign Service officers and a Foreign Service
     OMS. There is a vacant Civil Service position that, when filled, will cover regional


14               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




issues, including energy and environment. Morale in the office is high, which officers
attribute to their interesting and relevant work. Communications and guidance flow
easily between the office and the bureau’s leadership.

The office suite is shared by the co-chair of the Minsk Group, an OSCE effort to
find a political solution to the Nagorno-Karabakh conflict between Armenia and
Azerbaijan. The United States, along with Russia and France, provide co-chairs to
the negotiations. The U.S. Minsk Group co-chair, a WAE former ambassador, is
supported by CARC’s conflicts advisor, who devotes 80 percent of his time to these
duties. The conflicts advisor also supports the U.S. representative to the Geneva talks
to resolve the 2008 conflicts between Russia and Georgia concerning Abkhazia/
South Ossetia. The advisor exchanges information often with his desk officer
colleagues from the three countries involved in the conflicts and covered by the
office. Coordination and information sharing are frequent and substantial.

The two-officer Georgia desk is appropriate for this increasingly important bilateral
relationship. The second Georgia desk officer is an ELO on his first tour. The senior
desk officer has been his primary mentor, but all of the office staff members at vari­
ous times have helped familiarize him with the EUR bureau and the Department in
general. Communications among the three desks and the embassies are frequent and
comprehensive: secure video conferences are conducted biweekly, and telephone and
email exchanges take place often each day.


Office of Central European Affairs
The Office of Central European Affairs is well managed, covering 11 countries
with a staff of 17. It comprises a director, two deputy directors who are respon­
sible respectively for the Alpine unit (Austria, Germany, Liechtenstein, Slovenia,
and Switzerland) and the North Central Europe unit (Bulgaria, Czech Republic,
Hungary, Poland, Romania, and Slovakia), nine desk officers, two embedded PPD
officers, and two support staff. Two of the desk officers are first-tour ELOs; one is
a Civil Service officer on rotation from another EUR office. The director is highly
regarded by his staff, which appreciates his attention to clear communication and
work-life balance. Morale is good.

It is one of the busiest offices in the bureau, covering a diverse set of issues. The
office does an admirable job managing U.S. relations with its countries, encouraging
greater global engagement by our traditional partners, and fostering greater self-
confidence and assumption of responsibility among the new members of NATO and
the EU. Good communication within the office and the attention given to keeping
staff apprised of front office concerns contribute to its efficiency. The responsible
DAS also attends office staff meetings, usually on a weekly basis. Both the office
director and the DAS actively encourage strategic thinking. Despite generally good


            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   15


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




     communication with the front office, some officers noted a lack of feedback from
     seventh floor Principals’ meetings and frustration that they often obtain readouts
     first from their foreign interlocutors.

     The Office of Central European Affairs is one of the largest offices in EUR, having
     been consolidated with the former Office of Austria, German and Swiss Affairs in
     2008. As one of two regional “mega-offices” in the bureau (the other being the Office
     of Western European Affairs), it faces unique challenges because of its size and scope.
     Many officers wish they had more access to the director’s knowledge and experience,
     but they recognize the demands on his time and hesitate to approach him despite his
     efforts to be accessible.

     A recent office restructuring resulted in four layers for an office of 17 persons. While
     the new arrangement gives more officers the opportunity for professional develop­
     ment through supervisory experience, it sometimes creates conditions time-sensitive
     material bypasses the person responsible for rating the drafter. This situation makes
     it necessary for both raters and rated officers to make extra effort to maintain their
     mentoring relationship.

     Office leadership has done an admirable job of integrating into office operations the
     two embedded PPD officers, as well as a Civil Service employee who is taking part in
     the innovative Civil Service Professional Development Rotational Program. Two first-
     tour ELOs face unique challenges shared by other ELOs who have been assigned to
     Washington for their first tour, including inadequate preparation for working in the
     Department’s bureaucratic environment.


     Office of Nordic and Baltic Affairs
     The Office of Nordic and Baltic Affairs is a well run office responsible for eight
     countries – five Nordic (Denmark, Iceland, Finland, Norway, and Sweden) and three
     Baltic (Estonia, Latvia, and Lithuania). The office’s 11-member team consists of a
     director, deputy, three Foreign Service desk officers, two Civil Service desk officers,
     an embedded PPD officer, an officer on a temporary bridge assignment, a stay-in­
     school intern, and a Civil Service OMS.

     Office morale is very good. Officers appreciate the talented director’s ability to stay
     on top of complex issues in all of their countries and to respond quickly to email
     inquiries. He keeps the office team informed on front office concerns through thrice-
     weekly staff meetings, in addition to constant email and personal contact. This is
     supplemented by the responsible DAS’s weekly attendance at an office staff meeting
     and frequent email contact with the desks. The office staff meetings also benefit from
     frequent contributions from the Bureau of Intelligence and Research representative.




16               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




The Office of Nordic and Baltic Affairs is a high-energy, busy office with talented,
dedicated officers. The portfolio distribution, however, is uneven. One mid-level offi­
cer is responsible for two of the most demanding countries. At the time of the inspec­
tion, an officer on a temporary bridge assignment was assisting with the portfolio.
This arrangement, however, is a temporary fix and not a solution. Office leadership is
exploring permanent remedies. The OIG team supports these efforts.

The office leadership encourages a useful, bimonthly meeting of office staff with
their interagency colleagues on thematic topics, to help drive the policy-making
process on key objectives. During the inspection, the session focused on Muslim
outreach and countering violent extremism. The office was also engaged in construc­
tive efforts to revitalize the Enhanced Partnership in Northern Europe, a policy
coordination forum with the United States, and to make it more results-oriented.


Office of Russian Affairs
The Office of Russian Affairs is a high-profile, high-pace, high-output office that
provides essential support to President Obama’s efforts to reset U.S. relations with
Russia. The office maintains daily contact and excellent relations with its primary
counterparts on the National Security Council staff and in offices at the Department
of Defense, as well as at numerous other agencies and offices within the Department.
It also consults and coordinates closely with Embassy Moscow at all levels, through
regularly scheduled, secure video conferences and phone calls, as well as unscheduled
communications of all types. The office director is highly respected within and
outside the office for his leadership and overall management abilities. The office
operates with a regular complement of 16 staff, members, composed of Foreign
Service and Civil Service employees, one Schedule C employee, and one contractor,
supplemented by interns and exchange fellows.

The routine of high pace, high stress, short deadlines, long clearance lists, and long
hours does have an impact on morale, however. (Notwithstanding the best efforts of
the PDAS to impose clearance deadlines, one briefing paper prepared in 2010 for the
Secretary’s use in a bilateral meeting required 48 clearances.) The office is adequately
staffed, provided it can maintain its full complement of officers. The office director
continually has to deal with poaching of his talented staff. For instance, during the
OIG inspection, which was a very busy period in Russian-U.S. relations, the deputy
director and a political officer left on detail to the National Security Council. The
office successfully adapted to their departure by adjusting portfolios, but the loss of
two up-to-speed officers increased everyone’s workload.

Being periodically raided for its best staff by the National Security Council or
seventh floor offices creates gaps that others in the office must cover while new
staff is being recruited. At the time of the inspection, the office had an Air Force


            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   17


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




     officer National Defense Fellow and a Franklin Fellow from the Council on Foreign
     Relations. These exchange officers were being used to cover gaps and complete
     projects. The deputy position was to be filled soon after completion of the inspection,
     and the political officer position was being filled temporarily by the Franklin Fellow.

     The reset in relations policy initiated by Presidents Obama and Medvedev in 2009
     has helped make bilateral relations less confrontational. The Office of Russian Affairs
     has supported, both directly and indirectly, important accomplishments in improving
     U.S.-Russian relations, including finalizing negotiations of the new Strategic Arms
     Reduction Treaty, establishing the Bilateral Presidential Commission with 18 work­
     ing groups, and substantially advancing negotiations for Russia to join the World
     Trade Organization. Preparing Department principals for bilateral meetings or phone
     calls is a continuous process, that often entails preparing briefing books with over 30
     detailed briefing papers.

     In the past year, the establishment of the Bilateral Presidential Commission led to
     the creation of a new two-person section within the office. Tasked with coordinating
     the work of the 18 working groups, the two officers reach out to many agencies in
     Washington and offices in the Department.


     Office of South Central Europe
     The Office of South Central Europe is responsible for the countries of the Balkan
     region. With the assistance of HR, it converted an OMS position into a regional
     coordinator position, resulting in significant contributions to the office’s overall
     policy objectives. The office also benefits from the assignment of a Transatlantic
     Diplomatic Fellow (foreign diplomatic exchange program) to a country desk. Two
     ELOs also are assigned to the office, which is systematically familiarizing them to
     Department procedures and integrating them into office operations.

     The office director and deputy are experienced Balkan hands. The division of
     responsibilities had not been spelled out at the time of the inspection, due to the
     arrival of the deputy during the inspection. As a result, desk officers were uncertain
     about the division of responsibilities and unclear whether they should work all issues
     through both the director and the deputy director. The result, at present, is a flat
     structured office. The OIG team informally recommended that priority be given to
     delineating responsibilities between the office director and the deputy director.

     In addition, the newly appointed DAS supervises only the Office of South Central
     Europe, whereas the other DASes all supervise two or more offices. The DAS is a
     former South Central Europe office director, as well as an expert on Balkan issues.
     Although both he and the office director, who was the acting DAS for an extended
     period, are sensitive to the situation, there is a perception that the DAS is acting as


18               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



a “super office director.” Since all other DASes, including the PDAS, are responsible
for more than two offices, a reasonable adjustment could be made for more equitable
distribution of DAS office supervisory responsibilities.


    RECOMMENDATION 3: The Bureau of European and Eurasian Affairs
    should designate a second office to fall under the responsibility of the deputy assis­
    tant secretary responsible for the Office of South Central Europe. (Action: EUR)



Office of Southern European Affairs
The Office of Southern European Affairs is a small, well-managed office, responsible
for three challenging portfolios: Turkey, Greece, and Cyprus. It consists of an office
director, deputy director, OMS, four Turkey desk officers, two Greece desk officers, a
Cyprus desk officer, a stay-in-school intern, and an embedded PD officer. All posi­
tions in the office are Foreign Service, except one Greece desk officer (Civil Service)
and the OMS, who is a contractor in a Foreign Service designated position. One of
the Turkey desk officers also handles regional economic issues, and the junior Greece
desk officer handles regional political-military issues.

The office ably manages a heavy workload, while staying in close touch with overseas
posts and maintaining high office morale. The office’s recent accomplishments
include its perceptive reporting on the spring 2010 Greek financial crisis; its continu­
ing support for negotiations over Cyprus; and its help in managing U.S. relations
with a key NATO ally, Turkey, whose view of itself and its place in the world is fast
evolving.

Work is equitably distributed among the three desks. The four Turkey desk officers
include a capable, Turkish-speaking ELO who joined the office just as the inspec­
tion was beginning. The time needed for training and mentoring this new officer
— in terms of both her own time and that of the more senior, Turkish desk officers
mentoring her — makes the total of four desk officers somewhat misleading. Given
the importance of Turkey in the bureau’s strategic plan and the attention it gets in
the Department and throughout the U.S. Government, the four officers share a
heavy but not excessive workload. On the Greece and Cyprus desks, the distribution
of labor also seems about right. If the two-officer Greece desk occasionally has a slow
period, the junior desk officer’s work on regional political-military affairs, the largest
part of it Turkey-related, more than fills the time.

The office director and deputy, under the leadership of a fully engaged and accessible
DAS, have created a positive atmosphere in this high pressure environment, which
enables staff members to put their best efforts into the office’s work. In their effort


             OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   19


                 SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




     to promote morale, the office director and deputy make sure desk officers and other
     staff are not working unreasonable schedules or staying late in the office merely
     because they feel it is expected of them.

     The director and deputy also have sought training opportunities for employees
     at every level. They have encouraged staff, including the stay-in-school intern, to
     attend think tank presentations and other outside events whenever possible, to build
     their networks of contacts and broaden their knowledge of regional issues. Most
     importantly, the office director seeks to involve as many staff members as possible,
     consistent with each employee’s specific responsibilities, in the office’s main tasks,
     such as a series of high-level meetings with Turkish officials at the annual conference
     of the American-Turkish Council, which took place during the inspection. The office
     leadership’s attention to morale is recognized and appreciated by the entire staff. Its
     contribution to the office’s high productivity cannot be overestimated.

     As noted above, one PD officer is embedded in the office; the position falls organi­
     zationally under PPD. This officer also provides PD support to CARC. The officer
     is rated by the PPD deputy director, but her performance review is written by the
     Office of Southern European Affairs or the CARC deputy in alternate years. This
     complicated and confusing arrangement works imperfectly at best, in the Office
     of Southern European Affairs, as well as the other offices hosting embedded PD
     officers. (See the Office of Press and Public Diplomacy section for a more detailed
     discussion of embedded officers.)




     OFFICE OF UKRAINE, MOLDOVA, AND BELARUS AFFAIRS
     The Office of Ukraine, Moldova, and Belarus Affairs is a small office of six Foreign
     Service officers and two support staff, covering relations with Ukraine, Moldova,
     and Belarus. The office is doing a good job of staying informed on developments in
     its countries, consulting frequently with our embassies in each country, and keeping
     principals in the Department up to date on developments. There is good morale and
     teamwork in the office; the travel budget and the staffing level are adequate.

     Bilateral relations with Ukraine are increasingly robust as the U.S.-Ukraine Strategic
     Partnership Commission, co-chaired by the Secretary, matures and the agenda for
     its twice-a-year meetings is broadened. Reporting and analysis on the local elections
     held in Ukraine during the inspection were comprehensive. There are two officers on
     the Ukraine desk with the office deputy director picking up issues as needed.




20               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




Moldova is an active portfolio for the one desk officer, as the country strives to
improve its economy and democratic practices with a view to joining the EU. The
United States participates as an observer in the 5+2 negotiations to resolve the break­
away of the Transnistria area of Moldova. The desk officer staffs preparations for, and
accompanies, the deputy assistant secretary, who attends the regular 5+2 negotiations.

Relations between the United States and Belarus are chilled. Responding to actions
by Belarus’s throwback, Soviet style dictatorship, the United States imposed sanc­
tions on individuals and companies and reduced its diplomatic engagement with
the Government of Belarus. Belarus retaliated by forcing the departure of the U.S.
Ambassador and reducing the size of the embassy’s American staff from 33 to only 5
diplomats. Officers regularly have rotated through the embassy for several weeks at
a time to fill staffing gaps. The desk officer monitors and provides advisory reports
on developments in Belarus, as well as on efforts by the EU the OSCE to pressure
Belarus to make progress on democracy and human rights.


Office of Western Europe
The Office of Western European Affairs, with its 19-member staff, is responsible
for 14 countries: Andorra, Belgium, France, Ireland, Italy, Luxembourg, the
Netherlands, Malta, Monaco, Portugal, San Marino, Spain, the United Kingdom,
and the Vatican. The staff of this busy office consists of a director, two deputies, 11
desk officers, 2 embedded PPD officers, and 3 support staff. Two of the officers are
ELOs. A highly capable director, whose advice was widely sought and valued, headed
the office until midway through the inspection, when she left to take up a position
on the Seventh Floor. Morale in the office is high, despite an often intense workload.
The office continues to attract talented and highly motivated officers.

The United States enjoys mature relations with all the Western European Affairs
countries. The office continues to deal with traditional bilateral issues, but broader
global issues consume an increasing amount of officers’ time. These extensive rela­
tionships with partner countries, and the associated, heavy visitor schedule, all result
in an enormous demand for papers from the office to the EUR front office and to the
Seventh Floor. The director used the preparation of these papers to urge her staff to
engage in forward thinking.

This heavy workload was compounded at the time of the inspection by the office’s
involvement with preparing for the imminent NATO and EU summits. Just weeks
before the summits, and mid-way through the inspection, the gifted office direc­
tor curtailed to assume a new position, thus adding an additional level of stress to
the office. It is a tribute to the acting director and the abilities of the staff that the
summit preparation moved forward smoothly.




             OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   21


                 SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




     The director clears all papers prepared in the office. Because of the outside demands
     on the director’s time, this frequently creates bottlenecks and slows the process down.
     The OIG team suggested to the director more clearance authority to the deputies to
     avoid the inevitable holdups created when so many papers must be cleared through
     one person.

     The Office of Western European Affairs also is one of the biggest offices in
     the bureau, the result of its consolidation in 2008 with EUR’s Office of United
     Kingdom, Benelux, and Ireland. In such a large office, constant communication
     and feedback are essential for maintaining office morale and cohesion. Three times
     a week, the director holds staff meetings that are crisp, focused, and relaxed, and
     supplements the meetings with frequent email updates. At times, however, some
     officers have felt they were not receiving enough feedback on their work or on the
     results of high-level meetings. The OIG inspectors did not feel the situation required
     a recommendation, but the team counseled senior management concerning the
     importance of ensuring adequate information flow.


     Office of Press and Public Diplomacy
     A staff of 11 Foreign Service officers, 4 Civil Service employees, and 3 contract staff
     members constitute PPD. As noted earlier, eight of these employees are embedded in
     EUR policy offices; that is, they operate out of those offices, not from PPD. In addi­
     tion, the PPD director is charged with overseeing the Division of Press and Outreach,
     with its own staff of three Foreign Service officers, two Civil Service officers, and an
     OMS.

     PPD manages the use of PD resources to inform European publics and influence
     European views on U.S. policies and society. The most important of these resources
     are the embedded officers themselves. In addition, PPD more broadly coordinates the
     bureau’s use of the full range of PD tools available from R, the Bureau of Educational
     and Cultural Affairs (ECA), the Bureau of International Information Programs (IIP),
     and other Department offices. Beyond managing PD programs, PPD’s role is to
     represent to EUR the PD initiatives and concerns of U.S. embassies in Europe, and
     to convey to the field PD guidance from EUR and R. In the last year, PPD helped
     the bureau gain European support for U.S. Government goals in Afghanistan; shared
     in interagency PD planning to roll out the administration’s missile defense plan in
     Europe; implemented a PD strategy for the December 2009 Copenhagen conference
     on climate change; and had a hand in crafting EUR’s communications strategy on
     Kosovo’s declaration of independence.




22               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




EMBEDDED OFFICERS

The eight PPD officers embedded in policy offices across the bureau are simultane­
ously responsible to PPD and their respective policy offices. They are rated by the
PPD deputy director, and their evaluations are reviewed by the office or offices in
which they are embedded. In addition, three of PPD’s four Civil Service employees,
whose desks are located in PPD, also have assigned line responsibilities to certain
policy offices, namely RPM, ERA, and ACE. These three employees are informally
called “virtual embeds.” Their evaluations are written by PPD, but they may request
additional comments or input from the policy offices they support, if they so choose.

The debate about how to integrate PD officers into regional bureaus is an old one.
EUR was the first bureau to receive PD officers, who moved over from the United
States Information Agency in 2000, following the agency’s consolidation with the
Department. These officers were not embedded, however, but rather constituted a
new, separate PD unit within EUR. In 2006, the bureau began to place PD officers
in embedded positions, and by the following year the mix of embedded positions and
those located in a central PPD office assumed roughly the shape it has today.

Most of the other regional bureaus also have experimented with embedding,
although EUR, with the largest contingent of PD officers, has the longest experi­
ence with the arrangement. Nowhere has the process been entirely smooth. There
are inherent tensions in a structure in which officers effectively are called upon to
report to two masters: the PPD office and the policy office where they are placed.
Some of the placements are highly successful, with embedded officers designing and
managing PD programs that are crucial to both PPD and the host policy office.
Other placements are less successful. Some embedded officers, unclear about what is
expected of them, try to define their own jobs. In an effort to be helpful and share
in the workload of their policy offices, they may take on tasks that are not clearly
included in their work requirements. For example, some PD embedded officers help
prepare press guidance, although this is not a core requirement of their positions.
While this could be seen as a laudable initiative, it does not make for a consistently
structured assignment that is readily reproducible from one officer to the next in the
same position. The results can be frustrating and disappointing for all the parties: the
embedded officers, PPD, and the policy offices hosting the placements.

Regardless of the problems with embedding, the difficulties are outweighed by the
benefits of the arrangement, when it is successful. A case in point is the outstanding
work by one embedded officer on a PD strategy for the rollout of the missile defense
plan for Europe, referred to above. Other embedded officers, as well as officers
providing support out of the central PPD office (the virtual embeds), have made
notable contributions as well. Much would be lost if the bureau were to return to a
structure in which PD was again separated from the policy offices.



            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   23


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




     The bureau should continue to look for ways to make the embedding arrange­
     ment work better. PPD and the policy offices that host placements need to manage
     expectations and agree on the role of embedded officers in their policy office bases
     — which does not always happen now. Work requirements statements vary, and they
     do not consistently reflect the expectations of supervisors at PPD and in the policy
     offices. Although the entire set of work requirements should be reviewed, the absence
     of clarity has most frequently caused problems on the press side, where it has not
     been clear what role, if any, the embedded officer is expected to play in preparing
     press guidance. At the start of each new assignment, PPD should obtain agreement
     on these core requirements from the various policy offices in which embedded
     officers will be placed. Doing so would help prevent misunderstandings about the
     embedded officers’ roles that could jeopardize their effectiveness.


        RECOMMENDATION 4: The Bureau of European and Eurasian Affairs
        should instruct bureau policy offices and the Office of Press and Public
        Diplomacy to reach agreement on core work requirements for public diplo­
        macy embedded officers before they begin their assignments. (Action: EUR)


     Two embedded officers provide PD support to two different regional policy offices.
     One officer handles the Office of Russian Affairs and the Office of Ukraine,
     Moldova, and Belarus Affairs. Another is responsible for the Office of Southern
     European Affairs and CARC. In each case, the burden is too heavy for a single
     officer. PPD already is acting to establish a new embedded position in the Office of
     Ukraine, Moldova, and Belarus Affairs, which will free the incumbent now covering
     that office to give his full attention to the Office of Russian Affairs. PPD should
     similarly divide responsibilities for the Office of Southern European Affairs and
     CARC, because the current arrangement places an excessive burden on the embed­
     ded officer who now is supporting PD activities in two busy directorates. PPD could
     use an available full-time equivalent position to establish a new embedded position in
     CARC, thereby leaving the incumbent with responsibility for the Office of Southern
     European Affairs only.


        RECOMMENDATION 5: The Bureau of European and Eurasian Affairs
        should create a new public diplomacy embedded position in the Office of
        Caucasus Affairs and Regional Conflicts, and leave the incumbent who is
        now covering that office with responsibility only for the Office of Southern
        European Affairs. (Action: EUR)




24               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




PUBLIC DIPLOMACY STRATEGIC PLANS
In early 2010, the Secretary approved a new Strategic Framework for Public
Diplomacy, developed by R, which is preparing initiatives to achieve the goals
outlined in this document. After some coordination with EUR and other regional
bureaus, R communicates these initiatives, together with tasking instructions,
directly to field posts. PPD is then responsible for following up on the taskings
associated with those proposals directed to European posts.

The Framework provides a broad, intellectual context for PD activities worldwide. It
also specifically guides the allocation of PD resources, including those supposed to
be under the direction of EUR—making it an operational document, under which
R initiates actions and tasks the bureau and European field posts. Thus, it has many
of the attributes of a strategic plan and could potentially be in conflict with the PD
portions of the BSRP. At the least, the Framework appears to establish a second set of
priorities and instructions for PPD to follow.

PPD has gone to great pains to ensure that its own planning is consistent with the
Framework, and the OIG inspectors found no major disconnects between the two
documents. However, the emphasis placed on certain themes and the resources
committed to addressing them appeared different in the two plans. For example,
while PD on Afghanistan has a high priority in both documents, it has been particu­
larly emphasized by R—to the point of straining post resources to respond, in some
cases. On the other hand, reassuring European audiences of the continent’s continu­
ing importance to the United States was understandably more prominent in the
BSRP than in the Framework, where such a theme was present only by implication.

The differences between these two plans affect other regional bureaus’ PD plans, as
well, although this report looks only at EUR. On September 20, 2010, the Under
Secretary for Management sent a memorandum to all Assistant Secretaries and the
Director General, directing that, “any bureau decisions regarding deployment or
realignment of PD financial or human resources should be cleared by R” [in] “close
consultation with [the Under Secretary for Management], the Bureau of Resource
Management, HR and the affected bureaus.” This guidance fails to address the
potential conflict between the Framework and EUR’s own strategic plan for PD.
Department policy assigns responsibility for strategic and performance planning to
the Bureau of Resource Management’s Office of Strategic and Performance Planning.
The OIG team concluded that the Bureau of Resource Management, in coordination
with all the affected offices and bureaus, should review this recent development and
provide guidance on its implications for planning PD activities in EUR.




            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   25


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





         RECOMMENDATION 6: The Bureau of Resource Management, in coor­
         dination with the Under Secretary for Management, the Under Secretary
         for Public Diplomacy and Public Affairs, and the Bureau of European
         and Eurasian Affairs, should assess the implications of the new Strategic
         Framework for Public Diplomacy for the planning process for public diplo­
         macy activities in the Bureau of European and Eurasian Affairs. (Action: RM,
         in coordination with M, R, and EUR)


     PPD has a biweekly, expanded staff meeting with representatives from the
     Department’s two principal PD offices, IIP and ECA, and others (such as the Bureau
     of Intelligence and Research’s media reaction staff). This meeting serves a purpose,
     but it does not provide an opportunity to focus on high priority PD issues, nor does
     it engage IIP and ECA in developing strategies and marshaling resources to address
     them. The OIG team made an informal recommendation addressing this issue.




     DIVISION OF PRESS AND OUTREACH
     The Division of Press and Outreach does outstanding work, as recognized through­
     out the bureau. It consists of a division chief, two Civil Service senior outreach
     officers (one of whom acts as the office’s deputy), two Foreign Service press officers,
     and a program support assistant.

     The division earns plaudits for its effectiveness in advising bureau officials on media
     engagement and public outreach. The division focuses primarily on the U.S. media
     and foreign correspondents residing in the United States. Its responsibility for facili­
     tating visiting European journalists’ interview requests, often submitted by PD field
     posts, needs to be further clarified (see below). In its outreach activities, the division
     engages with academic and think tank audiences in Washington and across the
     country. It devises public affairs strategies on bureau priorities, and works with the
     Assistant Secretary and other principals to implement these plans. It also manages
     the daily press guidance process on behalf of EUR and is the first point of contact for
     members of the media with questions about U.S.-European policies.

     The press division works regularly with every other office in the bureau, and the
     quality of its work is widely recognized. However, the line separating the duties of
     the press division from those of the PPD embedded officers is sometimes unclear.
     There is also uncertainty about the press guidance clearance process. (See discus­
     sion of the PPD embedded officers’ roles and press responsibilities, above.) There is
     a lack of clarity about which office — PPD or the Division of Press and Outreach,


26               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




as represented by the embedded officers — is responsible for handling the visiting
European journalists’ interview requests. The press division’s standard operating
procedures state that the division facilitates such requests from foreign journalists
based in the United States, but it does not mention which office is responsible for
requests made by visiting reporters. This lack of clarity has caused some confusion
and disagreement among the division, PPD, and policy offices with PD embedded
staff members. The press division should amend its standard operating procedures
to make clear that it is responsible for facilitating all interview requests coming from
European media representatives, whether they are based in the United States or in
Europe.


    RECOMMENDATION 7: The Bureau of European and Eurasian Affairs
    should amend the standard operating procedures of the Division of Press and
    Outreach, to make clear that the division is responsible for all requests to
    facilitate interviews in the bureau coming from European media representa­
    tives, whether they are based in the U.S. or in Europe. (Action: EUR)


Policy offices also sometimes make mistakes in the process of clearing draft press
guidance between different EUR offices and those outside the bureau. According
to its standard operating procedures, the press division is supposed to obtain such
clearances. When other EUR offices obtain clearances themselves, it can lead to
duplicated effort, confusion, and wasted time. The press division recently sent office
directors revised standard operating procedures confirming the clearance process. In
addition, press officers routinely reiterate these instructions to the bureau’s new offi­
cers, both at orientation sessions and individually. Nevertheless, the problem persists.


    RECOMMENDATION 8: The Bureau of European and Eurasian Affairs
    should periodically recirculate the press division’s standard operating procedures
    via the “All EUR” collective address and also should post them on the bureau’s
    permanent intranet site where they will be seen readily. (Action: EUR)


As a final step before press guidance is delivered to PA each morning, the press
division obtains clearances from the EUR front office. In practice, this usually means
clearance is given by the DAS responsible for the country, region, or issue that the
guidance addresses. At present, however, the DAS responsible for PD is almost never
in the clearance chain.




            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   27


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




     The work requirements statement for the PD DAS assigns this position special
     responsibility for helping shape views on U.S. policies toward Europe. Arguably, no
     activity does more to shape these perceptions than the guidance that is prepared by
     the bureau and conveyed to the press and public through Department spokespersons.


         RECOMMENDATION 9: The Bureau of European and Eurasian Affairs
         should include the deputy assistant secretary responsible for press and public
         diplomacy in the clearance process for all bureau press guidance. (Action: EUR)


     The press division falls organizationally under PPD, whose director rates the press
     chief. The division operates with considerable autonomy, however, and the PPD
     director exercises little direct oversight. Neither the PPD director nor either of the
     PPD deputies clears (or necessarily even sees) the daily draft press guidance, even
     though the guidance is the press division’s principal activity. In addition, PPD does
     not directly oversee the press division’s important outreach activities, including public
     affairs scheduling for the Assistant Secretary. Also, because of the concentration of
     activity in the press division during the morning hours, neither the chief nor anyone
     else from the division normally attends PPD’s daily staff meetings.

     Good management practice calls for a reasonable measure of direct oversight by
     supervisors of offices formally under their charge, which is lacking in this case. The
     OIG team recommends that EUR/PPD/Press be removed from EUR/PPD and
     placed under the direct supervision of the PD DAS, who thus would become the
     rating officer for the press division chief. The DAS already has more regular deal­
     ings with the press division than does the PPD director. He attends daily senior staff
     meetings, for example, where the press chief regularly briefs attendees on important
     news developments and outreach planning. By contrast, the PPD director attends
     only some of these meetings. The DAS would gain an even better perspective on the
     press division’s work if he routinely cleared the daily press guidance, as is separately
     recommended in this report. The PPD director, as noted, plays no consistent role in
     the clearance process.


         RECOMMENDATION 10: The Bureau of European and Eurasian Affairs
         should remove the Division of Press and Outreach from the Office of Press
         and Public Diplomacy, and place it under the direct supervision of the deputy
         assistant secretary responsible for public diplomacy. (Action: EUR)




28               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




RESOURCE MANAGEMENT


                                                                                                             Total
                                              Foreign        Civil                          Total
                  Agency                                                  Contractor                        Funding
                                              Service       Service                         Staff
                                                                                                            FY 2010
 EUR Human Resources (FY 2010)
 EUR – Domestic                                    168            155          59              382
 EUR – Overseas                                  1,863        9,661*                        11,524
  Totals                                         2,031         9,816           59            1,906

  EUR Budget Resources (FY 2010)
 Diplomatic and Consular Programs                                                                         $265,931,000
 ICASS                                                                                                     244,470,000
 Domestic operations                                                                                        25,852,000
 Public Diplomacy (Diplomatic and
                                                                                                            64,848,000
 Consular Programs)
 Representation                                                                                             2,743,000
  Totals                                                                                                $603,844,000
*3 Civil Service Employees on Excursion Tours


EUR’s chief resource concern is the projected budgetary constraints expected in FY
2011 and beyond, and the resulting operational impact. Its FY 2012 BSRP identi­
fies potential consequences, including the inability to provide EUR posts with the
requested 29 U.S. direct-hire positions.

As discussed in the IT section of this report, the consolidation of IT services under
IRM appears to have diminished service quality in EUR, resulting in widespread
disatisfaction with IT operations and IRM support within EUR.

The bureau reports that over the past 5 years it has lost approximately 70 overseas
positions. As noted earlier, as part of a 2008 streamlining effort, EUR’s domestic
operation merged the Office of United Kingdom, Benelux, and Ireland Affairs
with the Office of Western European Affairs, producing a much larger office. It
also merged the Office of Austrian, German, and Swiss Affairs with the Office of
North Central European Affairs, creating a large, new office, the Office of Central
European Affairs.




              OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011        29


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




     MANAGEMENT INITIATIVES

     The bureau has instituted a number of management initiatives to address resource
     challenges and/or improve overall efficiencies in operations, including:

        •   P
            	 ost-to-Post Partnerships identify missions with strong resources and capabili­
            ties that can provide services to embassies with less capacity. For example,
            Embassy Podgorica receives human resources and financial management
            support from Embassy Zagreb, and facilities management support from
            Embassy Belgrade. It also receives classified IT support through thin client
            from Embassy Vienna. An International Cooperative Administrative Support
            Services (ICASS) mechanism is being tested that will allow the mission that
            provides support to bill the client mission for its services.

        •   	Regional Warehousing identifies areas where a regional warehouse could
            serve multiple missions. Embassies Vienna and Brussels are examples of two
            missions providing regional warehousing support to neighboring missions.

        •   	Just-in-Time Furniture delivers furniture to participating missions at the
             time they are needed in residences. As a result, furniture and appliances
             spend little or no time in warehouses. In exchange for their advanced plan­
             ning efforts, posts receive furniture and appliances in accordance with fixed
             replacement cycles. This initiative has enabled Embassies Athens, Tallinn,
             Vilnius, and Zagreb to shut down their leased warehouses; Embassies
             Copenhagen and Riga have reduced their warehouse space by half.




     JOINT EXECUTIVE OFFICE: OVERVIEW
     JEX is headed by the executive director, and two deputy directors oversee six divi­
     sions: post management, financial management, information management, human
     resources, general services, and the customer support center. The office is staffed
     by 21 Foreign Service officers, 50 Civil Service employees, and 17 contract employ­
     ees. For EUR alone, JEX supports 50 overseas missions and 31 constituent posts,
     including EUR’s 1,863 U.S. direct-hire positions and approximately 10,000 locally
     employed staff members. Domestically, JEX supports about 500 positions.

     The executive director and two deputy directors of JEX, all newly arrived, are
     seasoned officers. Filling key positions and integrating JEX offices are among their
     highest priorities. Internal and external coordination by JEX is generally good,
     although information sharing could be improved among the divisions of human



30               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




resources, financial management, and post management. In its process for making
Foreign Service assignments, JEX has fully embraced the Department’s principles
of consultative staffing,2 increased diversity, and Afghanistan-Iraq-Pakistan linked
assignments.

Morale in JEX is uneven. The formation of the office in 2006 from elements in EUR
and IO, along with its designation as a Human Resources Service Provider in 2009
and its resulting size, have left some employees feeling alienated. This problem was
exacerbated when the information management division’s portfolio was dissolved
(due to IT consolidation) and the customer service center was broken off from the
general services division. As a result, JEX has not yet come together as a cohesive
unit. The new JEX management is aware of this issue and is taking active steps to
address it.

JEX generally performs well in supporting both EUR and IO bureaus. As a Human
Resources Service Provider working in concert with HR, JEX’s human resources divi­
sion also supports the Bureau of African Affairs, the Bureau of East Asian and Pacific
Affairs, and the Bureau of Western Hemisphere Affairs.

The inspection identified weaknesses in some operational areas. Improvements are
needed in controlling purchase card reconciliations and travel order and voucher
processing. The office’s financial management division needs standard operating
procedures for the overseas and domestic teams’ processes and workflow.

Establishing standard operating procedures is especially important, given the turn­
over in staff and staffing gaps the financial management division has experienced,
Staffing gaps also plague the human resources division. The divisions are viewed
throughout the bureau as competent and engaged, but both are operating without
permanent senior managers. EUR is taking appropriate action to remedy this situ­
ation. The topic of staffing gaps is further addressed in the management controls
section of the report.


Regionalization
The Regional Support Center (RSC) Frankfurt is JEX’s regional operation. It
provides on-site assistance in consular affairs and financial and human resource
management, to approximately 40 posts located in Europe, the Middle East, South
Asia, and Africa. Training programs are conducted at the RSC and at supported

2
    Consultative staffing is a process whereby functional bureaus with an interest in certain overseas posi-
    tions within their area of expertise are consulted and have an opportunity to participate in the assign-
    ments process.




                 OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   31


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




     posts, mostly for locally employed staff. The Bureau of Near Eastern Affairs recently
     asked EUR for a stake in RSC Frankfurt; the two bureaus are in the process of
     discussing the details of such a cooperative relationship.




     HUMAN RESOURCES DIVISION

     Domestic Section
     The human resources division’s domestic section performs adequately, and its
     customers are generally satisfied. It is a Human Resources Service Provider for Civil
     Service and Foreign Service employees in its parent bureaus, EUR and IO, as well as
     for Civil Service employees in the Bureaus of African Affairs, East Asian and Pacific
     Affairs, and Western Hemisphere Affairs. For overseas missions, the section is respon­
     sible for position management and benefits, and it administers the awards program
     and the employer/employee relations program for Foreign Service and eligible family
     member employees. Domestically, the section creates vacancy announcements,
     administers employer/employee relations programs, and provides performance evalua­
     tion services for Civil Service and Foreign Service employees.

     In 2008, JEX became a Human Resources Service Provider, offering Civil Service
     classification and staffing services to client bureaus. The section still is adjusting to
     its new role and the Department’s goal to shift delivery of human resource services
     from Washington to the service center in Charleston, South Carolina, which began
     processing benefits for the parent and client bureaus in October 2010. This is a very
     small part of the section’s workload and will not result in staff reduction. Further
     service transfers and staff reassignments are anticipated, but nothing is on the
     horizon.

     Client feedback is mixed. Many aspects of service are well received by customers, but
     there are concerns. All client bureaus have been served under executed service level
     agreements, but two of the agreements have a 1-year term that has expired and has
     not yet been renewed. In one service level agreement arrangement, strong disagree­
     ments have emerged, and the parties seem unwilling to work out their differences. As
     a result, the service provider is frustrated that it cannot satisfy its client, and the client
     is troubled by the level of service. An operative written agreement and more commu­
     nication would go a long way to improve the relationship. (The OIG team made an
     informal recommendation addressing the level of service issue.)




32                OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                      SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED





   RECOMMENDATION 11: The Bureau of European and Eurasian Affairs
   should execute new service level agreements with clients for whom previous
   service level agreements have expired. (Action: EUR)


Many in EUR see the need for a current, formal orientation program for all incoming
employees. Once a year, the bureau offers an informal orientation program, which
received mixed reviews by newly hired employees. Many newcomers did not attend
the EUR orientation, at all, and those who took it found the program of limited util­
ity. In addition, most officers did not take the Foreign Service Institute Washington
Tradecraft course. The majority of those who did reported that it would have been
more useful if it had included more practical information. The OIG team informally
recommended that the bureau implement a general orientation program for new
employees, to familiarize them with the Department and EUR, and that it give all
new arrivals a checklist requiring them to visit each office director. In the course
of the inspection, EUR management initiated actions in response to these informal
recommendations.

The human resources division receives strong oversight from HR’s Civil Service
human resource management office. In its recent human accountability reviews of
recruitment and staffing, performance management, training, and service delivery,
HR found EUR’s human resources division to be a well functioning organization.
The 2008 report addressed performance management issues which this report
discusses in the management controls section. JEX uses these HR accountability
reviews to ensure that corrective actions are taken.




OVERSEAS DIVISION

Foreign Service Assignments
The human resources division’s Foreign Service assignments section performs very
well. It represents EUR’s and IO’s staffing needs and assignment preferences to the
Office of Career Development and Assignments. Primary responsibility for Foreign
Service assignments rests with three individuals. The Foreign Service assignments
team leader is responsible for EUR senior- and mid-level political, economic and
PD positions. Also, while the human resources division chief position is vacant, the
team leader handles chief of mission, principal officer, and deputy chief of mission




            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   33


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




     positions. One team member is responsible for IO senior and mid-level political,
     economic, and PD positions. The other team member is responsible for all EUR and
     IO management positions, including OMS positions.

     According to the human resources division, this section is a good partner in the
     assignments process and is willing to find workable solutions to problems. The
     human resources division has fully embraced consultative staffing. In the second
     year of implementing the consultative staffing program, functional bureaus were
     better prepared to participate in the process. They researched bidders and were added
     as points of contact – and bidders did make contact and actively lobbied for jobs.
     Consequently, the functional bureaus were better able to represent their staffing
     requirements.

     HR’s FY 2010 target for linked Afghanistan-Iraq-Pakistan assignments is 170. As
     in past years, the human resources division will fully comply with the Department’s
     linked assignments policy. Historically, EUR accounts for approximately 20 to 25
     percent of all linked assignments, so it can expect to have between 34 and 42 of these
     assignments in the 2011 open assignments cycle. Unlike in prior years, however, EUR
     is prepared to refuse linked assignments to a specific mission this year, once it can be
     demonstrated that the mission has done its fair share.

     EUR also is attentive to the Department’s call for increasing diversity through work­
     force planning. The bureau held several brown bag lunches with diversity groups,
     to raise awareness about its goal to be more inclusive. It proactively reached out to
     missions, desks, and HR to identify qualified diversity candidates for the current
     assignment cycle.

     The bureau’s positions are typically heavily bid, although it has eight historically
     difficult posts to fill. The human resources division assists these posts in a number of
     ways, but chiefly by encouraging bidders for positions in Moscow (who are Russian
     language speakers) to consider positions at one of these eight posts.




     POST MANAGEMENT DIVISION
     The post management division is made up of a supervisory post management officer
     (PMO), 10 PMOs, a coordinator for the PAE contract, an OMS, and a program
     assistant. By all accounts, the division is performing effectively. Morale is high and
     there is a high degree of camaraderie. Each of the PMOs is responsible for four to
     six posts, acting as the posts’ liaison on management issues. Additionally, each PMO
     tracks and at times advances assigned functional areas. The EUR posts were generally
     complimentary of the support they receive from their PMO.



34               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




The complexity of PMO assignments in JEX is somewhat heightened by the number
of noncareer chiefs of mission in EUR. Being new to the Department, they tend to
require additional information, advice, and support.

The OIG inspectors identified several areas for improvement, which they discussed
with the supervisory PMO, who agreed with them. The areas included more struc­
tured orientation of PMOs to their assignments; drafting and/or updating and use of
standard operating procedures; and clarification of PMO responsibilities for func­
tional areas.

 The post management division expressed frustration with the limited information-
sharing by the financial management and human resources divisions. This was
particularly evident in 2009, when the post management division and the financial
management division provided the executive director with differing end-of-year
post funding priorities. An informal recommendation addresses the need for JEX to
strengthen communications and cooperation among its divisions.

The OIG inspection team was favorably impressed with the management and over­
sight of the $7 million PAE contract, which provides approximately 76 personnel
to work in sensitive areas of embassies in Europe and Asia. The vast majority of the
work is in Moscow. The coordinator is the contracting officer’s representative for the
EUR portion of the contract.




EQUAL EMPLOYMENT OPPORTUNITY
The bureau is attentive to and supportive of Equal Employment Opportunity goals
and objectives, and it is hands-on in addressing these matters as they arise.




GENERAL SERVICES DIVISION
The general services division performs its duties generally well. Its activities include
purchase card services, asset management, work order execution, supplies, travel,
space management, and records service. The staff members are experienced and
knowledgeable, and their customers praise their ability to identify areas for new
offices and provide high-quality logistics support for renovating, furnishing, and
equipping office space. Issues in the bureau’s travel process, which cross different
sections of the executive office and bureau, are discussed below and in the domestic




            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   35


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




     financial management office section of the report. Also, recommendations concern­
     ing the purchase card program are made in the management controls section of this
     report.


     Travel Process
     Arranging travel services for EUR and IO travelers is a complex process. It involves
     employees at every level, crosses various offices and bureaus, and includes systems
     that are both in and out of the Department. JEX’s travel section, composed of three
     travel coordinators, resides in the general services division. Its function is mostly advi­
     sory, much like a travel help desk. The section’s main focus is to link bureau travelers,
     travel arrangers, and the Department’s automated travel system, E2 Solutions. The
     section also hosts training sessions for the bureau’s travel program.

     Travel arrangers, typically OMSes, are assigned to the EUR 23 offices. They assist
     travelers in preparing authorizations and vouchers using E2 Solutions. Data that is
     entered into the E2 Solutions system (usually by travel arrangers) is used in a variety
     of ways, including to issue tickets and to record entries in the Department’s account­
     ing system. For the process to be successful, it is critical that the travel arrangers
     use consistent data entry methods. Three groups approve travel authorizations and
     vouchers in EUR: the affected office, the travel section, and the financial manage­
     ment section. EUR has improved efficiency for office approvals by having three to
     five approvers in each of the 23 offices. However, this efficiency comes at a price:
     the wide variety of approvers’ practices often results in errors that require additional
     processing.

     The OIG team found that the travel process for EUR and IO needs improvement.
     Many travelers complained that the process is time consuming and reimbursements
     are unreasonably delayed. Travel authorization and vouchering procedures, which
     encompass many sections and offices in and outside the general services division, are
     marked by lack of attention to detail. Employees do not always know their roles, and
     travelers do not know their responsibilities. At the time of the inspection, written
     policies and procedures for the bureau’s traveler program.

     As a result of the bureau’s failure to implement effective travel procedures, travelers
     often experienced lengthy delays in obtaining authorizations and expense reimburse­
     ment, and the bureau often committed resources that could have been put to better
     use. Also, the bureau’s travel process had a negative impact on employee morale. In
     addition, E2 Solutions user errors have affected the finance office’s ability to succeed
     in its travel program responsibilities. (See the domestic financial management section
     of the report.)




36               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED





    RECOMMENDATION 12: The Bureau of European and Eurasian Affairs
    should establish a written travel policy, including procedures for managing
    travel authorizations and travel vouchers. The policy should include delega­
    tions of authority and the elements of a valid claim. (Action: EUR)


Some delays—such as those caused by voucher rejections—could be prevented if
both travelers and travel arrangers were better skilled at their respective roles in the
process. The financial management division rejects an estimated 40 percent of all
international travel vouchers. Lack of receipts was the number one reason for voucher
rejections. Another chronic problem was the lack of necessary skills among voucher
preparers. For example, preparers routinely have difficulty converting currencies.
Delays from these causes can be traced to the lack of training. EUR has not placed
sufficient emphasis on E2 Solutions training.


    RECOMMENDATION 13: The Bureau of European and Eurasian Affairs
    should require employees to have formal travel program training in the bureau
    and also take E2 Solutions training at the Foreign Service Institute before they
    are assigned travel arranger responsibilities. (Action: EUR)




CUSTOMER SUPPORT CENTER DIVISION
The customer support center provides clients of JEX services their first point of
contact in JEX. Service provision is adequate. The division consists of a chief, two
program specialists, a budget technician, and the three OMS rovers. It processes
incoming employees to EUR and IO providing them with office space, phones, cell
phones, and computers, and helping them obtain ID badges, visas, and passports.
Additionally, it manages the OMS rover program, which is intended to provide
temporary assistance to all Department-based EUR and IO offices. Most of the
work requests the division initiates are accomplished either by or through JEX’s other
divisions.

As noted, this division currently has three OMS rovers, one of whom manages JEX’s
front desk and occasionally performs OMS rover duties. The customer support center
division is compiling data to determine whether additional OMS rover resources are
necessary. Anecdotal information obtained during the inspection suggests that this
data will support adding OMS rovers. One of the division’s OMS rover positions
currently is vacant.

            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   37


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




     FINANCIAL MANAGEMENT DIVISION
     The financial management division provides adequate services to EUR and IO
     domestic and overseas offices. It is responsible for managing the resources allocated
     to EUR for its programs and operations. Led by a chief budget officer supported
     by a staff of 11 full-time employees, the division’s duties include preparing EUR
     budget submissions to the Bureau of Resource Management; developing funding
     requirements for EUR’s BSRP; managing, allocating, and monitoring EUR’s overseas
     and domestic allotments; and providing guidance to overseas posts on Department
     financial management policies and procedures. Much of the staff’s work involves
     compiling and analyzing financial data. Office of Management and Budget guidance
     for FY 2012 not only instructs agencies to reduce spending across the board but also
     aims to restructure operations strategically. The financial management staff currently
     is engaged with EUR’s front office to implement this guidance.

     The division is organized into three teams: overseas, domestic, and contributions.
     For FY 2010, it manages about $604 million: $25.8 million for domestic; $513.1
     million for overseas (which includes reimbursements received from other agencies
     for overseas management support); and another $64.8 million for PD. EUR receives
     representation funds of $42,000 for domestic use and $2.7 million for overseas use,
     as well as about $866 million in foreign assistance, most of which is implemented by
     USAID and other Department bureaus. EUR implements about $85 million, which
     is executed by the financial management division.

     This division is currently in flux. Its most pressing issue has been staffing gaps and
     absences over the past few years. Continuity and consistency in leadership positions
     also have been intermittent. These staffing gaps have especially plagued the overseas
     and domestic teams. As a result, relatively new employees were left on their own to
     learn about routine processes, Department regulations, and financial applications.
     Day-to-day work has been getting completed, but at a cost to the well being and
     morale of the staff, some of whom have worked long hours to keep up with demands.
     Attention to other important EUR initiatives and planning also has taken a backseat
     to responding to immediate taskings.

     Adding to the problem is that the division employees work with various Department
     databases—including the global financial management system, ICASS global data­
     base, and various Bureau of Resource Management financial applications—which
     require downloading data and reformatting to respond to frequent data calls from the
     Bureau of Resource Management, because standardized reports are not readily avail­
     able. Despite the understaffing and turnover, the financial management division’s
     staff has good working relationships with other Department bureaus and offices,
     both internally and externally, and with EUR posts. However, the work could be
     done more efficiently and thoroughly if the staffing gaps were eliminated. Addressing



38               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




staffing gaps is critical to strengthening internal controls over operations and improv­
ing efficiencies and customer service; EUR management acknowledges this and is
taking appropriate action.

JEX management addressed the lack of continuity in the division’s leadership, by
using the bureau’s Civil Service Professional Development Rotation pilot program to
bring in a GS-14 foreign affairs officer from the Office of Policy and Global Issues to
serve for a year as chief budget officer. The consistent leadership seems to be improv­
ing productivity and morale in the division. However, during the OIG inspection,
the deputy chief position unexpectedly became vacant, and the bureau once again is
challenged with filling another leadership position. Current JEX management has
sought the Bureau of Resource Management and HR support in identifying and
bringing on an experienced temporary duty deputy budget officer for 5 months, to
fill the position until the next bidding cycle. The team also appears to be addressing
long- and short-term issues in the financial management section, recognizing that the
division needs experienced personnel to plan for the immediate and projected budget
realities facing the Department. The OIG team agrees that EUR should continue
these efforts.

One area needing improvement in the financial management division is the lack
of standard operating procedures for the overseas and domestic teams. This issue is
discussed later in this report, in the Management Controls section.


Overseas Team
An FS-02 deputy budget officer leads the overseas team, supported by three positions
(FS-02 and FS-03 budget officers, and a GS-14 budget analyst). The deputy also fills
in during the chief’s absences. During the past year, two positions on the overseas
team have been vacant. The overseas team is responsible for providing support to
56 EUR posts and 7 posts in IO. It also handles diplomatic and consular programs,
ICASS, and representation funding. Other duties include setting financial targets;
developing financial plans for EUR and IO; and issuing and tracking allotments,
including cost of living allowances, educational allowances, and locally employed
staff wage increases. The team is in contact with post financial management offi­
cers daily, dealing with a myriad of issues, such as handling locally employed staff
pension and medical benefit plans, funding new positions, reconciling Secretary of
State and White House travel, and processing reimbursements from other agencies.
The team also regularly responds to requests from the EUR and IO front offices, as
well as from JEX and the Bureau of Resource Management. The current team has
performed these responsibilities adequately — but not without a toll on the staff, due
to turnover and gaps in the section. The RSC Frankfurt staff has assisted the overseas
team throughout the year with some of these taskings. An experienced WAE senior
financial management specialist will fill in the deputy position upon the departure of
the incumbent.

            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   39


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




     Domestic Team
     The domestic team, led by a GS-14 budget analyst supported by a staff of three,
     generally performs well in carrying out its duties. These duties include processing
     EUR and IO travel, EUR domestic representation, and other domestic expenditures
     totaling about $28 million. This team is also responsible for planning and executing
     EUR’s special accounts, such as bureau-managed foreign assistance accounts, ICASS,
     Foreign Service national separation liability trust fund, and gift funds. The staff
     also handles funds held domestically for overseas posts (for example, for the Art in
     Embassies program or OSCE expenses). One shortcoming of this office is its lack
     of standard operating procedures, especially for the responsibilities of a long-term
     employee who will soon retire. In light of this division’s recent staff turnover, it is
     important that it have standard operating procedures in place, particularly for this
     position. This issue is discussed further in the Management Controls section of the
     report.

     Another area needing improvement is the review of unliquidated obligations. The
     domestic team reviews the status of obligations reports on a quarterly, rather than
     monthly, basis and intermittently throughout the year. The OIG team informally
     recommended that the section review its unliquidated obligations and obligated
     balances more frequently. The section was short-handed during the last yearend
     push and found the period challenging. As the new budget analysts adjusted to the
     office, backlogs receded and accounts are now in reasonable shape. A number of
     unliquidated obligations relating to Department hiring contracts in ACE remained
     outstanding. These could easily be cleared. The financial management division needs
     to improve coordination between its domestic team and ACE. The OIG team made
     an informal recommendation addressing this issue.

     Managing travel obligations will always create a large workload, and it often will have
     to be given top priority. The section directs much of its energy to EUR’s and IO’s
     travel processes. The OIG team recommended informally that the financial manage­
     ment office could achieve greater efficiency by allowing analysts to telework, to focus
     exclusively on travel accounting. (See the Travel Process and Management Controls
     sections of this report for formal recommendations regarding travel process policy
     and procedures.)


     Contributions Team
     The staff of three on the contributions team processes payments from international
     organizations accounts to the respective international organizations. The team
     handles execution for about $2.2 billion in funds for U.S. contributions to United
     Nations (UN) peacekeeping activities, and $1.7 billion for U.S. contributions to
     the UN and approximately 47 other international organizations. It also processes


40               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




payments for about $390 million for voluntary contributions to multilateral organiza­
tions and activities supporting U.S. priorities, including the UN Development Fund
and the UN Children’s Fund.

The contributions team performs its duties adequately. The experienced and knowl­
edgeable staff members worked in these same positions in IO prior to the consolida­
tion of EUR and IO, and they work well with other JEX staff. Their responsibilities
include providing regular reports on the status of funds to the IO managers with
whom they work closely. The unit has standard operating procedures for its processes
and the two databases it uses to manage payments. The OIG inspection team
could not verify checks and balances in IO, but EUR and the Bureau of Resource
Management appear to oversee the unit’s general processes. Once the financial
management division is fully staffed and stabilized, JEX management should
consider cross training the contributions team on EUR’s international organization
appropriations allotments, to increase the section’s knowledge and enhance career
development. During the inspection, EUR discussed implementing this suggestion.




INFORMATION MANAGEMENT
The information management division is making concerted efforts to be proactive
and customer-oriented. Following IT consolidation in 2008, IRM has been provid­
ing desktop support services. EUR’s information management division handles a
wide range of roles related to IRM’s provision of these services, such as coordinating
IRM’s efforts to meet bureau customer needs; conducting development activities for
the SharePoint environments; and acting as a liaison between EUR and the posts (for
instance, with regard to ordering equipment for the posts or reporting to IRM on
systemic IT issues at overseas posts).


Information Technology Consolidation
Two years after EUR’S consolidation of desktop services with IRM, growing pains
remain. EUR staff described a number of issues concerning IRM’s customer service,
including poor technical support, misrouted trouble tickets, excessive delays in resolv­
ing trouble tickets, and apparent limitations in the overall knowledge and technical
ability of the IRM technicians. (The OIG team experienced some of these difficulties
firsthand, when it experienced network access problems in its assigned work space.
EUR had noted similar issues in during OIG’s 2009 evaluation of the IT consolida­
tion program.)




            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   41


                SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     The misrouting of trouble tickets by IRM is fairly common. Each time a staff
     member receives a misrouted ticket, he or she must take time to research the issue,
     to reroute the ticket correctly. Moreover, there have been numerous instances when
     IRM technical staff have been unable to resolve relatively simple troubleshooting
     tasks, and instead have recommended replacing the equipment — whereupon out-of-
     scope information management personnel reportedly were called in to fix the prob-
     lems. They were able to do so with little ado; nevertheless, they were diverted from
     their primary responsibilities. EUR staff also questioned IRM’s apparent practice of
     opening multiple trouble tickets on the same issue, such as when issuing a hard drive,
     and even suggested that IRM technicians are doing so solely to improve their perfor-
     mance benchmarks.

     Meanwhile, IRM has not been clear about defining which staff members have which
     information management responsibilities. For instance, information systems security
     officer duties are not clearly defined, nor are they understood by the relevant parties.
     (b)(2)(b)(5)




     The OIG team met with the IT consolidation representatives who are responsible
     for liaison between EUR and IRM. The IRM representatives were aware of EUR’s
     concerns, and indicated they have taken several corrective steps. To address the issues
     with trouble ticket resolution and technician abilities, the current version 3 of the
     service level agreement between IRM and all consolidated bureaus is being revised.
     IRM has formed a working group that includes representatives from the information
     management division, to involve the bureau in developing customer service bench-
     marks. Also, IRM has revised its in-scope and out-of-scope responsibilities matrix
     to alleviate confusion. The IRM bureau liaisons also have coordinated several face-
     to-face meetings with EUR senior management to discuss the bureau’s concerns and
     collaborate on determining corrective measures.

     One of IRM’s overall goals in IT consolidation was to achieve economy of scale
     for information management staffing levels within the Department. However, as
     a consolidated bureau, EUR’s information management staffing will show little
     change. As a result of consolidation, seven of EUR’s information management
     division positions were moved to IRM; however, a recent study by the Bureau of
     Administration’s Commercial Services Management team deemed EUR’s informa-
     tion management office understaffed, identified two of the contractor positions as
     inherently governmental, and proposed an increase in personnel that would return
     staffing to preconsolidation levels. Thus, as far as EUR is concerned, consolidation
     efforts have resulted only in decreased personal attention to customers, a sharp drop
     in overall customer satisfaction, and the failure to realize savings.



42                  OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




The IT consolidation issues described by EUR staff echo many of those identified
in last year’s OIG evaluation report on the IT consolidation program.3 The find­
ings of that report ranged from the lack of timeliness in resolving trouble tickets to
inadequacy of training and skill levels among IRM technicians and a lack of clarity
of in-scope and out-of-scope responsibilities. Additionally, last year’s OIG team found
inconsistent sharing of information systems security officer duties and an overall lack
of communication among parties. Clearly, these issues remain.

The 2009 OIG team made several recommendations in its evaluation of the IT
consolidation program. Specifically, it recommended that the chief information offi­
cer revise performance metrics for its helpdesk service contracts, to address customer
complaints on timeliness and resolution of issues. It also recommended revising the
training program for IRM’s technicians, and clarifying in-scope and out-of-scope
responsibilities for desktop services, information systems security officer duties, and
asset management. The current OIG team concluded that IRM’s compliance with
the recommendations in that 2009 OIG report would alleviate the problems still
being experienced by EUR and other consolidated bureaus. Recommendations made
in the 2009 report remain open and require IRM compliance actions.


Telecommunications, Wireless, and Data Services
EUR receives its voice and data connectivity from the Telecommunications, Wireless,
and Data Services Division (TWD) within IRM. The relationship between TWD and
EUR’s information management office is strained. The OIG team heard numerous
accounts of TWD’s poor customer service and exorbitant monthly rates for items such
as network switches.

In discussions with EUR and TWD personnel, the OIG team observed a lack of
clarity about where responsibility lies for providing, maintaining, and documenting
bureau telecommunications infrastructures. This lack of clarity includes diagrams and
location documentation for data ports and circuitry, as well as access rights to switch
closets, and even which office moves furniture to allow access to data ports. Also, there
was confusion over whether connectivity was being initiated/terminated via electronic
consoles or physically at the patch panel, and by whose authorization. Both EUR and
TWD have attempted to arrange meetings to resolve the confusion, but with limited
success. Toward the end of this inspection, the OIG team prompted TWD and EUR
IM representatives to hold a meeting. This meeting helped promote communication
between both parties; however, questions regarding processes and procedures remained
unanswered, thus preventing a long-term resolution to the problems.



3
    Evaluation of the Information Technology Consolidation Project at the Department of State, Report

    Number AUD/IT-10-11, January 2010. 




                OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   43


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





         RECOMMENDATION 14: The Bureau of Information Resource
         Management should clarify the roles and responsibilities of the Bureau of
         European and Eurasian Affairs and the Bureau of Information Resource
         Management, with regard to telecommunications, wireless, and data services,
         including which entity is responsible for installation, wiring diagrams, access
         rights, and service change requests for all consolidated bureaus. (Action: IRM)


     The OIG team noted errors in voice circuit billing and poor billing formats that
     make reconciliation efforts exceedingly difficult. In the case of voice circuits, EUR is
     being charged monthly for several phone lines that are invalid numbers. Because of
     such errors, EUR undertook to identify anomalies in their monthly bills. The EUR
     general services division surveyed the bureau to identify active phone lines, then
     reconciled that list with the lines identified on its billing statements. So far, EUR has
     identified at least 365 lines for which it is being charged that are not currently in use;
     many of these discrepancies may be related to the numerous office moves the bureau
     recently has undergone. However, by identifying and rectifying these billing errors,
     EUR will save approximately $150,000 annually.

     EUR has not completed a comparable study for data circuits, but conducting such
     a study would be difficult for a variety of reasons. The data port billing statements
     are more complex and cannot be sorted easily. It also is more labor intensive to check
     the viability of data circuits than it is to confirm whether phone lines are active.
     Moreover, the billing statements detail only one data port per page, resulting in a
     500-page monthly bill from TWD, which effectively acts as a disincentive to close
     scrutiny. In addition, although the bill is handled by the general services division, the
     knowledge of which ports are active is dispersed among various information manage­
     ment division staff, contractors, and IRM personnel.

     In accordance with 5 FAM 527, bureau executive officers should review monthly
     telephone service statements for accuracy of charges and to seek repayment for
     unapproved telephone charges. Further, executive officers should review telephone
     inventories annually to validate the need for equipment installed within their bureaus
     in attempt to eliminate unnecessary telecommunications expenses.


         RECOMMENDATION 15: The Bureau of European and Eurasian Affairs,
         in coordination with the Bureau of Information Resource Management,
         should complete a thorough review of telecommunications circuit billing, to
         reconcile current charges against the actual, active infrastructure, determine
         any discrepancies, and take corrective steps as needed. (Action: EUR, in coor­
         dination with IRM)


44               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




Systems Development Life Cycle

EUR’s information management office has neither established nor implemented a
systems development life cycle (SDLC) methodology. In accordance with 5 FAH-5H­
210, the Managing State Projects or similar life cycle methodology should be
deployed to manage all IT system development projects with a systematic framework
with tailoring options and control gates for management review. While most of the
office’s current development activities are performed within a SharePoint environ­
ment with an established structure, it is important to deploy a rigorous process. A
properly documented and enforced SDLC methodology would provide assurance
that all bureau-specific applications and systems are adequately documented, with
proper management and security controls in place.

During the inspection, the OIG team found that systems documentation was not
easily accessible—often because either the documentation did not exist, or the staff
was unfamiliar with particular systems’ presence and purpose. A properly existing
methodology makes such documentation readily available. According to the unit’s
director, the information management division needs an SDLC process, and the staff
is working on its development.


   RECOMMENDATION 16: The Bureau of European and Eurasian Affairs
   should develop and implement a systems development life cycle process.
   (Action: EUR)




SECURITY PROGRAM
The JEX security program is administered by a bureau security officer, who is a Civil
Service employee in the Bureau of Diplomatic Security’s division of information
security, programs, and applications. This individual is one of ten bureau security
officers directly supporting the Department’s geographic and functional bureaus. The
bureau security officer program was created in 2004 to provide subject matter experts
in all matters concerning internal bureau security. The officers develop, implement,
and advise on procedures and controls for safeguarding classified and administra­
tively controlled information, and they enforce all associated security regulations. In
addition, JEX has one principal unit security officer and 15 primary and alternate
unit security officers at the directorate or equivalent level.




            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   45


                SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




     The JEX bureau security officer takes a proactive approach to security, has the full
     backing of the executive office, and is well integrated into the JEX workforce. The
     officer sends out security directives via email, particularly before weekends and holi­
     days, to remind personnel to properly secure classified hard drives and check work
     areas for classified and Sensitive But Unclassified (SBU) material.

     In general, EUR staff members take personal security awareness seriously. The unit’s
     security officers enforce use of the “buddy system” for double checks of colleagues’
     work areas. The JEX director is immediately informed of any security violations
     discovered during after-hours inspections. JEX makes a team effort to keep viola­
     tions to a minimum: the bureau security officer is included in the JEX in- and
     out-processing procedures, so that Sensitive Compartmented Information (SCI)
     requests/transfers/debriefs are completed and mandatory security training is sched­
     uled. The bureau security officer also executes safety programs. During the course of
     the inspection, for example, the OIG team participated in a fire drill in the Harry S
     Truman Building and observed that EUR and IO evacuation plans are complete, and
     the exercise was conducted smoothly and without incident.


     Security Incident Program
     The JEX security incident program is well managed. As set forth in 12 FAM 553.1 a.,
     and 12 FAM 556 a., security incidents must be reported to the Bureau of Diplomatic
     Security for adjudication. Security infractions and violations have been declining, as
     shown by the following table:
                                      2008                     2009                     2010 (to date)

     Infractions:                        9                        7                        4
     Violations:                         0                        0                        0
     Validated:                          3                        0                        1

     The Bureau of Diplomatic Security determined that only one infraction was vali­
     dated, and it did not result in a possible or actual compromise of information. As the
     record attests, the bureau security officer has done an excellent job applying internal
     security controls to protect sensitive and classified material within JEX. Security inci­
     dents are processed and adjudicated expeditiously, in coordination with the Office of
     Information Security’s division of programs and applications.


     Annual Security Refresher Briefing
     In accordance with 12 FAM 564.2, all functional bureaus within the Department
     must provide, at a minimum, annual security refresher training for personnel
     having continued access to classified information. This is one of many tools used


46                  OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                        SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




to prevent personnel from becoming indifferent to good security practice. With the
assistance of the Bureau of Diplomatic Security, JEX conducts an annual, combined
security/counterintelligence refresher. Of the approximately 345 EUR and IO
domestic employees, 80 percent have completed the required training; JEX schedules
make-up classes to enable the bureaus to strive for 100 percent compliance.


Annual Review of Classified and Sensitive But Unclassified
Hardcopy Material
The JEX director has authorized downtime of 1 hour semiannually for all personnel
to review and purge all accumulated SBU and classified material that is no longer
required—a process that is informally termed “summer cleaning.” This procedure
reduces the likelihood of an inadvertent compromise of national security or sensitive
information.


Special Security Representative
In accordance with the Director, Central Intelligence Directive 6/1, Section 5.2,
a special security representative shall be appointed for any organization that has a
subordinate SCI facility. The special security representative will ensure that proper
SCI security policy and procedures are implemented for SCI information and physi­
cal security controls of the SCI facility itself. This information also must be provided
to the special security operations division of Bureau of Diplomatic Security’s Office
of Information Security.

According to the special security operations division, JEX has special security repre­
sentatives on written orders for each bureau, all of whom are current in their special
security representative training. All EUR and IO SCI facilities are in compliance
with Director of Central Intelligence Directive 6/9, based upon the last inspections.
Two of EUR’s facilities are currently due for their periodic inspection by the special
security operations division; the division will schedule upcoming inspections. IO is
currently up to date on its inspections.




            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   47


                SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED





48   OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




MANAGEMENT CONTROLS


EUR’s management controls program is headed by one of JEX’s deputy executive
directors. On August 23, 2010, EUR submitted the Assistant Secretary’s annual
Management Control Statement of Assurance, which identified specific, potential
material weaknesses and/or deficiencies at 12 overseas missions, along with the status
of corrective actions. The submission did not identify management control weak­
nesses in EUR’s domestic operations, even though a recent risk assessment exercise
had noted several areas of concern. These concerns included (a) the need to create
and use standard operating procedures, workflow charts, and schedules for preparing
work commitments, and (b) the need to enter this information into the ePerformance
database. The OIG team also identified these weaknesses, which are addressed in
more detail below.




TRAVEL VOUCHERS
Processing travel documents has been a challenge for the financial management
division. Since EUR and IO programs require extensive travel, the domestic team
spends a lot of time on travel-related work. The previous yearend brought what one
analyst described as 50 pages of unliquidated obligations relating to uncompleted
travel vouchers. After a concerted effort by the financial management division and
GSO travel section, this number was brought down to a reasonable level. However,
most travelers do not complete vouchers in a timely manner, and the bureau does not
enforce the Department’s standard that vouchers be completed within 5 days from
the travel ending date (4 FAM 465.1). As a result, the related obligations stay on the
books longer than is necessary.


   RECOMMENDATION 17: The Bureau of European and Eurasian Affairs
   should disseminate a management notice reminding travelers of their respon­
   sibility to file travel vouchers within 5 days from the travel ending date and
   stating sanctions for late filers, and track compliance. (Action: EUR)




            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   49


                SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




     PURCHASE CARD PROGRAM
     The executive director of JEX has not adequately assumed the role of coordinator for
     the bureau’s purchase card program, as prescribed by the Department’s Worldwide
     Purchase Card Program Manual. As a result, EUR’s purchase card program does not
     comply with Department standards, and the bureau cannot be sure its transactions
     are free from error or misstatement.

     Monthly account reconciliations are a cornerstone of the Department’s purchase card
     program. Although EUR’s cardholders have prepared reconciliations, the approving
     official has not consistently submitted the monthly approval and reconciliation to
     central accounting, as is required by the Worldwide Purchase Card Program Manual.
     Nevertheless, the Bureau of Resource Management’s central accounting office contin­
     ues to make purchase card payments. Further, the OIG team found no evidence that
     the bureau program coordinator has completed purchase card annual reviews. The
     review process monitors compliance with policy and procedures, enhances oversight
     to prevent fraud, and raises awareness by highlighting areas that need improvement.
     The failure to implement these control measures has persisted over a considerable
     period of time, which has impaired the bureau’s control environment.


        RECOMMENDATION 18: The Bureau of European and Eurasian Affairs
        should disseminate a written policy for its purchase card program, underscor­
        ing the executive director’s role as program coordinator and listing the roles
        and responsibilities of program participants. (Action: EUR)




        RECOMMENDATION 19: The Bureau of European and Eurasian Affairs
        should complete the approving official review of monthly purchase card recon­
        ciliations and transmit the records to the Bureau of Resource Management.
        (Action: EUR)




        RECOMMENDATION 20: The Bureau of European and Eurasian Affairs
        should complete the purchase card annual review for fiscal year 2010. (Action:
        EUR)




50                OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                      SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




PERFORMANCE MANAGEMENT
The 2008 report of the human accountability review conducted by HR’s Office
of Resource Management and Organization Analysis cited a breakdown in EUR’s
documentation of performance evaluations for the bureau’s Civil Service employees.
The bureau has made progress, but 9 months after EUR’s documentation was due, 7
out of 117 of the Civil Service performance evaluations were outstanding, and 5 out
of 117 of the work commitments were outstanding. In addition, all completed evalua­
tions were delivered to the central HR office after the deadline. The OIG team found
similar problems with IO’s Civil Service employee evaluations; some IO employees
had not even been assigned raters for the current cycle.

The performance evaluation function is important for administering a personnel
system and building employee morale. The OIG team recommended informally that
the bureau remind employee raters that they are required to complete all evaluations
and submit them in to the central HR office by the deadline. Reporting require­
ments for unreported and late Civil Service performance evaluations under 3 FAH-1
H-2825.4 were not met.


   RECOMMENDATION 21: The Bureau of European and Eurasian Affairs
   should submit a delinquent raters list identifying both delinquent raters and
   Civil Service employees whose performance evaluation reports were late or not
   prepared. (Action: EUR)




STANDARD OPERATING PROCEDURES
EUR lacks standard operating procedures for the financial management division’s
overseas and domestic teams. This shortcoming is longstanding and significant, given
the division’s turnover in staff. In the 2001 OIG report, inspectors recommended
that EUR document standardized procedures for recurring financial management
control activities in the budget office. EUR responded that it was updating its hand­
book of standardized procedures, and the recommendation was closed. However,
the current inspectors found that standard operating procedures either were still
in the early stages of development or could not be found. Financial management
division staff attributed this problem to the turnover and gaps in office staffing and
their need to respond to short turnaround requests while carrying out day-to-day
responsibilities.



           OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   51


               SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED





     RECOMMENDATION 22: The Bureau of European and Eurasian Affairs
     should establish written standard operating procedures for the financial
     management division’s overseas and domestic teams. (Action: EUR)




52          OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




LIST OF RECOMMENDATIONS


RECOMMENDATION 1: The Bureau of European and Eurasian Affairs should
conduct a top-to-bottom review of functional portfolios, reducing their overall
number and reallocating them accordingly among the relevant offices. (Action: EUR)


RECOMMENDATION 2: The Bureau of European and Eurasian Affairs, in coor­
dination with the Office of the Legal Adviser, should establish specific benchmarks
in the resolution of Holocaust era-related issues that, when reached, would lead to the
phasing out of the Office of the Special Envoy for Holocaust Issues and absorption of
its remaining elements into other Department offices. (Action: EUR, in coordination
with L)


RECOMMENDATION 3: The Bureau of European and Eurasian Affairs should
designate a second office to fall under the responsibility of the deputy assistant secre­
tary responsible for the Office of South Central Europe. (Action: EUR)


RECOMMENDATION 4: The Bureau of European and Eurasian Affairs should
instruct bureau policy offices and the Office of Press and Public Diplomacy to reach
agreement on core work requirements for public diplomacy embedded officers before
they begin their assignments. (Action: EUR)


RECOMMENDATION 5: The Bureau of European and Eurasian Affairs should
create a new public diplomacy embedded position in the Office of Caucasus Affairs
and Regional Conflicts, and leave the incumbent who is now covering that office
with responsibility only for the Office of Southern European Affairs. (Action: EUR)


RECOMMENDATION 6: The Bureau of Resource Management, in coordina­
tion with the Under Secretary for Management, the Under Secretary for Public
Diplomacy and Public Affairs, and the Bureau of European and Eurasian Affairs,
should assess the implications of the new Strategic Framework for Public Diplomacy
for the planning process for public diplomacy activities in the Bureau of European
and Eurasian Affairs. (Action: RM, in coordination with M, R, and EUR)




            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   53


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




     RECOMMENDATION 7: The Bureau of European and Eurasian Affairs should
     amend the standard operating procedures of the Division of Press and Outreach, to
     make clear that the division is responsible for all requests to facilitate interviews in
     the bureau coming from European media representatives, whether they are based in
     the U.S. or in Europe. (Action: EUR)


     RECOMMENDATION 8: The Bureau of European and Eurasian Affairs should
     periodically recirculate the press division’s standard operating procedures via the
     “All EUR” collective address and also should post them on the bureau’s permanent
     intranet site where they will be seen readily. (Action: EUR)


     RECOMMENDATION 9: The Bureau of European and Eurasian Affairs should
     include the deputy assistant secretary responsible for press and public diplomacy in
     the clearance process for all bureau press guidance. (Action: EUR)


     RECOMMENDATION 10: The Bureau of European and Eurasian Affairs should
     remove the Division of Press and Outreach from the Office of Press and Public
     Diplomacy, and place it under the direct supervision of the deputy assistant secretary
     responsible for public diplomacy. (Action: EUR)


     RECOMMENDATION 11: The Bureau of European and Eurasian Affairs should
     execute new service level agreements with clients for whom previous service level
     agreements have expired. (Action: EUR)


     RECOMMENDATION 12: The Bureau of European and Eurasian Affairs should
     establish a written travel policy, including procedures for managing travel authoriza­
     tions and travel vouchers. The policy should include delegations of authority and the
     elements of a valid claim. (Action: EUR)


     RECOMMENDATION 13: The Bureau of European and Eurasian Affairs should
     require employees to have formal travel program training in the bureau and also take
     E2 Solutions training at the Foreign Service Institute before they are assigned travel
     arranger responsibilities. (Action: EUR)


     RECOMMENDATION 14: The Bureau of Information Resource Management
     should clarify the roles and responsibilities of the Bureau of European and Eurasian
     Affairs and the Bureau of Information Resource Management, with regard to tele­
     communications, wireless, and data services, including which entity is responsible
     for installation, wiring diagrams, access rights, and service change requests for all
     consolidated bureaus. (Action: IRM)

54               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




RECOMMENDATION 15: The Bureau of European and Eurasian Affairs, in coor­
dination with the Bureau of Information Resource Management, should complete a
thorough review of telecommunications circuit billing, to reconcile current charges
against the actual, active infrastructure, determine any discrepancies, and take
corrective steps as needed. (Action: EUR, in coordination with IRM)


RECOMMENDATION 16: The Bureau of European and Eurasian Affairs should
develop and implement a systems development life cycle process. (Action: EUR)


RECOMMENDATION 17: The Bureau of European and Eurasian Affairs should
disseminate a management notice reminding travelers of their responsibility to file
travel vouchers within 5 days from the travel ending date and stating sanctions for
late filers, and track compliance. (Action: EUR)


RECOMMENDATION 18: The Bureau of European and Eurasian Affairs should
disseminate a written policy for its purchase card program, underscoring the execu­
tive director’s role as program coordinator and listing the roles and responsibilities of
program participants. (Action: EUR)


RECOMMENDATION 19: The Bureau of European and Eurasian Affairs should
complete the approving official review of monthly purchase card reconciliations and
transmit the records to the Bureau of Resource Management. (Action: EUR)


RECOMMENDATION 20: The Bureau of European and Eurasian Affairs should
complete the purchase card annual review for fiscal year 2010. (Action: EUR)


RECOMMENDATION 21: The Bureau of European and Eurasian Affairs should
submit a delinquent raters list identifying both delinquent raters and Civil Service
employees whose performance evaluation reports were late or not prepared. (Action:
EUR)


RECOMMENDATION 22: The Bureau of European and Eurasian Affairs should
establish written standard operating procedures for the financial management divi­
sion’s overseas and domestic teams. (Action: EUR)




            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   55


                SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED





56   OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




INFORMAL RECOMMENDATIONS


Informal recommendations cover operational matters not requiring action by orga­
nizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any
subsequent OIG inspection or on-site compliance review will assess the mission’s
progress in implementing the informal recommendations.

Coordination and Clearance

Some EUR offices feel that the Office of Policy and Global Issues’ coordination of
routine legislative affairs actions (for example, the confirmation process) adds an
unnecessary bureaucratic layer to the process. Items uniquely applying to an office
should have direct referral, with front office or Office of Policy and Global Issues
followup, to the affected office.

Informal Recommendation 1: The Bureau of European and Eurasian Affairs should
review and reallocate coordination responsibilities for routine legislative affairs issues
directly to the responsible office.

Office of Regional Security and Political Military Affairs

RPM is the lead office on NATO issues in EUR. However, the Office of Policy and
Regional Affairs has responsibility for NATO nuclear weapons posture and missile
defense issues. This overlap borders on duplication.

Informal Recommendation 2: The Bureau of European and Eurasian Affairs should
clearly delineate the respective responsibilities of the Office of Regional Security and
Political Military Affairs and the Office of Policy and Regional Affairs.

Office of South Central European Affairs

The office deputy director arrived during the inspection, and the DAS was also
newly assigned. When the office director resumed her former position, following
several extended periods as the acting DAS, desk officers were unclear about lines of
authority and responsibility.

Informal Recommendation 3: The Office of South Central European Affairs
should give priority to delineating lines of responsibility and supervision between the
office director and the deputy office director.




            OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   57


                SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




     Office of Press and Public Diplomacy

     PPD has a biweekly, expanded staff meeting with representatives from the
     Department’s two principal PD offices, IIP and ECA. While this meeting serves a
     useful purpose, it does not provide an opportunity to focus closely on priority PD
     issues or to engage IIP and ECA in developing strategies and marshaling resources to
     address them. 

     Informal Recommendation 4: The Bureau of European and Eurasian Affairs should
     organize small, targeted meetings or working groups among the Office of Press
     and Public Diplomacy, Bureau of International Information Programs, and Bureau
     of Educational and Cultural Affairs to develop strategies and marshal resources to
     address bureau public diplomacy priorities.

     Human Resources Division

     Client bureaus have been served under service level agreements that specify service
     levels and the roles and responsibilities. In one arrangement, strong disagreements
     have emerged, but the parties have not shown a willingness to engage for solutions.

     Informal Recommendation 5: The Bureau of European and Eurasian Affairs should
     instruct its human resources section to reach out to clients on service disputes and
     resolve differences.

     Orientation

     New employee orientation is informal in EUR, consisting mainly of filling out forms
     in the human resources section and leaving more central matters, such as touring the
     Department and meeting bureau principals, to a new employee’s office.

     Informal Recommendation 6: The Bureau of European and Eurasian Affairs should
     develop and implement a centralized orientation program with specific steps that
     introduce new employees to the Department and all the elements of the bureau.

     Informal Recommendation7: The Bureau of European and Eurasian Affairs should
     implement, as part of the new arrivals checklist, a requirement that each entrant pay
     an introductory call on his or her office director, and receive instruction from the
     staff assistants in the EUR front office on correct preparation of documents.

     Foreign Service Assignments

     The post management division is frustrated by the lack of information from both
     the financial management division and the human resources division in planning for
     new Foreign Service assignments.



58               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





Informal Recommendation 8: The Bureau of European and Eurasian Affairs should
take steps to strengthen communications among the financial management division,
the human resources division, and the post management division.

Financial Management Division

The domestic financial management team does not periodically schedule, review, and
analyze obligation balances, and there are significant unliquidated obligations for
domestic allotments.

Informal Recommendation 9: The Bureau of European and Eurasian Affairs should
review unliquidated obligations monthly and prepare adequate working papers and
schedules in a form suitable for review.

There are a number of unliquidated obligations relating to program contracts that
could easily be cleared. There is little coordination between ACE, which handles the
contracts, and the financial management office domestic team.

Informal Recommendation 10: The Bureau of European and Eurasian Affairs
should take steps to improve coordination for clearing unliquidated obligations
between the financial management section domestic team and the Office of the
Coordinator of U.S. Assistance for Europe and Eurasia.

Managing travel obligations creates a large workload for the domestic financial
management team and often requires priority attention.

Informal Recommendation 11: The Bureau of European and Eurasian Affairs
should offer telework options when necessary, to enable budget analysts on the
domestic financial management team to work exclusively on travel accounting to
achieve greater efficiency.

Security
(b)(2)(b)(5)




Informal Recommendation 12: (b)(2)(b)(5)




               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   59


                   SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




     Management Controls

     For 2010, 7 percent of work commitments and performance evaluations for Civil
     Service employees remained outstanding 9 months after the due date. Similar
     circumstances existed for IO Civil Service employees. Some employees had not been
     assigned raters for the current cycle. The performance evaluation function is impor­
     tant not only in administering a personnel system but also for employee morale.

     Informal Recommendation 13: The Bureau of European and Eurasian Affairs
     should hold supervisors accountable for completing Civil Service performance evalua­
     tions and work commitments in their own performance evaluations.




60               OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                     SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




PRINCIPAL OFFICIALS


                                                                    Name                                           Arrival Date
                                                                                                                    (month/year)
Front Office:
Assistant Secretary                                                 Dr. Philip H. Gordon                               05/2009
Principal Deputy Assistant Secretary                                Nancy E. McEldowney                                08/2009
Deputy Assistant Secretary                                          Thomas M. Countryman                               10/2010
Deputy Assistant Secretary                                          Tina S. Kaidanow                                   08/2009
Deputy Assistant Secretary                                          Pamela G. Quanrud                                  08/2009
Deputy Assistant Secretary                                          Spencer P. Boyer                                   08/2009
Deputy Assistant Secretary                                          Daniel A. Russell                                  06/2009
Deputy Assistant Secretary                                          Elizabeth L. Dibble                                10/2010
Senior Advisor                                                      Jeremy Shapiro                                     11/2009

Office Directors:
Assistance for Europe and Eurasia                                   Dan Rosenblum                                      02/2009
Central European Affairs                                            Alex Karagiannis                                   08/2009
Caucasus Affairs and Regional Conflicts                             Ethan Goldrich                                     07/2009
European Union and regional Affairs                                 Kathleen Doherty                                   07/2010
Executive Office                                                    James D. Melville                                  09/2010
Nordic, Baltic                                                      Robert Silberstein                                 01/2010
Restitution and Holocaust Issues                                    Douglas Davidson                                   04/2010
Policy and Global Issues                                            Marc Ostfield                                      09/2010
Press and Public Diplomacy                                          Elizabeth McKay                                    08/2009
Policy and Regional Affairs                                         Theresa Grencik                                    09/2010
Regional Security & Political
   Military Affairs                                                 Brent R. Hartley                                   07/2010
Russian Affairs                                                     Kyle Scott                                         09/2009
Southern Europe Affairs                                             Jess Baily                                         08/2008
South Central Europe Affairs                                        Jennifer Brush                                     05/2010
Ukraine, Moldova, Belarus Affairs                                   Lawrence Silverman                                 08/2009
Western Europe Affairs                                              Maureen Cormack                                    06/2009




             OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011                   61


                 SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED





62   OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


         SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED




ABBREVIATIONS


ACE                            Office of the Coordinator of U.S. Assistance for Europe
                               and Eurasia
AEECA 	                        Assistance for Europe, Eurasia and Central Asia
BSRP	                          Bureau Strategic and Resource Plan
CARC	                         Offi ce of Caucasus Affairs and Regional Conflicts
DAS 	                          Deputy Assistant Secretary
Department	                   U.S. Department of State
ECA 	                          Bureau of Educational and Cultural Affairs
ELO                           entry-level
                               	          officer
EU	                           European Union
EUR 	                          Bureau of European and Eurasian Affairs
ERA	                          Offi ce of European Union and Regional Affairs
HR	                            Bureau of Human Resources
ICASS 	                        International Cooperative Administrative Support
                               Services
IIP 	                          Bureau of International Information Programs
IO	                            Bureau of International Organization Affairs
IRM 	                          Bureau of Information Resource Management
IT	                           information technology
JEX 	                          Joint Executive Office
NATO	                          North Atlantic Treaty Organization
OIG	                          Offi ce of Inspector General
OMS	                          offi ce management specialist
OSCE 	                         Organization for Security and Co-operation in Europe
PD	                           public diplomacy
PDAS	                          Principal Deputy Assistant Secretary




          OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   63


              SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




     PMO                          post management officer
     PPD                          Office of Press and Public Diplomacy
     R                            Under Secretary for Public Diplomacy and Public
                                  Affairs
     RPM                          Office of Regional Security and Political Military
                                  Affairs
     RSC                          Regional Support Center
     SBU                          Sensitive But Unclassified
     SCI                          Sensitive Compartmented Information
     SDLC                         systems development life cycle
     SEED                         Support for East European Democracies
     TWD                          Telecommunications, Wireless, and Data Services
                                  Division
     UN                           United Nations
     USAID                        U.S. Agency for International Development
     WAE                          when actually employed




64           OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



        EUR Bureau Organization Chart





                                                                       Assistant Secretary                                       As of 12/09/10


                                       Executive Office
                                                                                                                     ACE



                                               Special Assistant                               Executive Assistant

                                                                                                    Special Advisor
                                                      Senior Advisor                                /Speechwriter


       PDAS               DAS                         DAS                                                     DAS          DAS
                                                                                 DAS                                                              DAS



        OHI                                           SCE                                                 CARC                                    PRA
                                                                                                                           CE
                           PPD                                                   ERA


        PGI                                                                                                   SE                                  RUS

                                                                                                                           NB
                                                                                 WE
                          EUR-Press
        RPM                                                                                                                                       UMB


                        ACE – Assistance for Europe & Eurasia           PRA – Policy & Regional Affairs
                        CE – Central European Affairs                   RPM – Regional Security & Political
                        CARC – Caucasus Affairs & Regional              Military Affairs
                        Conflicts                                       RUS – Russian Affairs
                        ERA – European Union and Regional Affairs       SCE – South Central Europe
                        EX – Executive Office                           SE – Southern Europe
                        NB – Nordic, Baltic                             UMB – Ukraine, Moldova, Belarus
                        OHI – Restitution & Holocaust Issues            WE – Western Europe
                        PGI – Policy & Global Issues
                        PPD – Press & Public Diplomacy                  Office Director
                                                                        Deputy Director


(EUR also supports the work of four special envoys: an economic envoy to Northern Ireland; a
Eurasian energy envoy; an advisor for conflicts and the Minsk Group; and a special envoy on
Holocaust issues.)




                       OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011                              65


                           SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED





66   OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011


         SENSITIVE BUT UNCLASSIFIED
    SENSITIVE BUT UNCLASSIFIED





OIG Report No. ISP-I-11-22 - Inspection of the Bureau of European and Eurasian Affairs - March 2011   67


    SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE

OR MISMANAGEMENT

 of Federal programs hurts everyone.



           Contact the

   Office of Inspector General


         HOTLINE

to report illegal or wasteful activities:


            202-647-3320 

            800-409-9926


         oighotline@state.gov


              oig.state.gov


      Office of Inspector General

       U.S. Department of State

            P. O. Box 9778

         Arlington, VA 22219



     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.




SENSITIVE BUT UNCLASSIFIED

